<html>
<title> - [H.A.S.C. No. 112-31]OPERATION ODYSSEY DAWN AND U.S. MILITARY OPERATIONS IN LIBYA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 112-31]
 
      OPERATION ODYSSEY DAWN AND U.S. MILITARY OPERATIONS IN LIBYA

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 31, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
65-802                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="abccdbc4ebc8ded8dfc3cec7db85c8c4c685">[email&#160;protected]</a>  
                                     
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     KATHY CASTOR, Florida
BOBBY SCHILLING, Illinois            BETTY SUTTON, Ohio
JON RUNYAN, New Jersey               COLLEEN HANABUSA, Hawaii
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                 Ben Runkle, Professional Staff Member
                Michael Casey, Professional Staff Member
                    Lauren Hahn, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, March 31, 2011, Operation Odyssey Dawn and U.S. 
  Military Operations in Libya...................................     1

Appendix:

Thursday, March 31, 2011.........................................    47
                              ----------                              

                        THURSDAY, MARCH 31, 2011
      OPERATION ODYSSEY DAWN AND U.S. MILITARY OPERATIONS IN LIBYA
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Gates, Hon. Robert M., Secretary of Defense, U.S. Department of 
  Defense........................................................     3
Mullen, ADM Michael G., USN, Chairman, Joint Chiefs of Staff.....     5

                                APPENDIX

Prepared Statements:

    Gates, Hon. Robert M.........................................    53
    McKeon, Hon. Howard P. ``Buck''..............................    51
    Smith, Hon. Adam.............................................    52

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Franks...................................................    59
    Mrs. Hanabusa................................................    61
    Mr. Heinrich.................................................    60
    Mr. Kissell..................................................    60
    Mr. Langevin.................................................    59
    Mr. Palazzo..................................................    59
      OPERATION ODYSSEY DAWN AND U.S. MILITARY OPERATIONS IN LIBYA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Thursday, March 31, 2011.
    The committee met, pursuant to call, at 9 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. We will 
give them one more chance, but if there is any disruption, you 
will be removed. Please, please respect that.
    Good morning. The House Armed Services Committee meets 
today to receive testimony on the President's decision to 
commit Armed Forces in an international effort to shield 
Libya's civilian population from the fury of a repressive 
tyrant.
    I commend our fighting forces for manning the wall between 
freedom and tyranny, and I honor their bravery, but I have 
concerns about our objectives in Libya, our contribution to 
meeting those goals, and the length of America's commitment to 
what could be a prolonged conflict. Secretary Gates himself 
when asked if the U.S. had vital interest in Libya said, no, 
but we have interest in the region. The United States has 
interest in all regions of the globe, but I am curious what the 
criteria are for military intervention.
    History has demonstrated that an entrenched enemy like the 
Libyan regime can be resilient to air power. If Qadhafi does 
not face an imminent military defeat or refuses to abdicate, it 
seems that NATO could be expected to support a decade-long no-
fly zone enforcement like the one over Iraq in the 1990s. With 
Iraq and Afghanistan already occupying a considerable share of 
American resources, I sincerely hope that this is not the start 
of a third elongated conflict, especially in a region where we 
have other, more discernible strategic interests.
    With America's fighting men and women in harm's way, it is 
not my intention to second-guess or undermine the 
administration's authority, but I would like an explanation of 
the nature of this threat and how American interests will be 
advanced through the use of military power.
    Fortunately, we have two witnesses who I hope will bring 
clarity to these ambiguities. Defense Secretary Robert Gates 
and Chairman of the Joint Chiefs of Staff Admiral Michael 
Mullen, thank you for taking the time to attend this open 
session today. Mr. Secretary, I understand how busy you have 
been. I know you have traveled a lot. I know that you have got 
tremendous burdens on you, and also you, Mr. Chairman. I 
appreciate you taking the time to be with us here today, and 
that is very important.
    On a final note I would like to remind members of the 
public who are with us today that I will tolerate no disruption 
to this proceeding. This is a serious matter. Members of this 
committee and the American public deserve to hear what our 
witnesses have to say. I will ask the Capitol Police to remove 
anyone who creates a disturbance.
    Thank you.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 51.]
    The Chairman. Ranking Member Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    Secretary Gates, Admiral Mullen, thank you for being here 
today. I think the most important thing in this hearing is to 
answer the questions of where we go from here, what the 
situation on the ground in Libya is, and what you see the level 
of U.S. involvement from this point forward. It is obviously a 
very uncertain situation, and there will be no guarantees, no 
set timetables, but as Members in Congress, the more 
information we get on your best estimate of what our commitment 
is going to be, for how long, and what is going to be involved, 
and what our goals are, the better off we are going to be able 
to explain it to our constituents.
    I also think it is important in the hearing today to flesh 
out a little bit the criteria for our intervention. Many have 
asked the question, why Libya but not some of the other places 
that have civil wars or disruptions going on? I think I have 
some of the answers for that, but I think it is very important 
to explain to the American people that this is not an open-
ended commitment from the United States that we will dive in 
and get involved in any civil war any time. I do believe that 
there were a unique set of circumstances in Libya that 
warranted this action, but I think it is incredibly important 
that we explain what that unique set of circumstances was to 
let the American people know that this is not something we are 
going to be doing in a great number of places.
    I think here we had a clear situation where our unique 
assets and ability could, at least in the short term, stop a 
humanitarian disaster. Colonel Qadhafi was rolling back the 
rebellion and killing many civilians, and there was every 
reason to believe that he would continue to do that, and they 
were unable to defend themselves.
    We had a unique situation also in that the international 
community came together in support of action against Colonel 
Qadhafi. The United Nations [UN], the Arab League, NATO 
[Northern Atlantic Treaty Organization]; we had a broad base of 
support. I think that is important not just because it gives us 
that support, gives us cover, if you will, for our actions, but 
it is important because it also made it more likely that we 
could succeed in those actions. And that is one of the most 
important criteria that I don't think has been talked about 
enough.
    You can look at situations in the past, like in Rwanda or 
even now in Syria, in Bahrain, in Yemen, and see a humanitarian 
crisis developing, but that doesn't necessarily mean that we 
have the military ability to go in there and succeed in 
stopping that from happening and making things better instead 
of worse. In Libya I think we did have that opportunity because 
of the international support, because of the assets that we 
could bring to bear, and because of the fact that we had clear 
targets in Libya to stop Colonel Qadhafi from rolling back the 
rebellion, at least temporarily. And to have that opportunity 
was one that we should have taken.
    I think everyone should be mindful of the fact that if we 
had not acted, not only would this have happened, not only 
would thousands of civilians in Libya have been killed, but the 
United States of America in the eyes of much of the world would 
have been blamed for that because they would have seen clearly 
that we had the chance to stop it and chose not to. As someone 
who has worked extensively on counterterrorism policy and 
dealing with Al Qaeda, that would have been a crushing blow to 
us, to once again make it look like the United States did not 
care about protecting those in the Muslim world who face the 
violence of despots. So I think we have to factor that in as 
well.
    But going forward we do need to know what comes next, 
because for the fact that we had the ability to act a week ago 
doesn't mean that we are going to be able to continue to be 
successful. We really want to know what the commitment is going 
to be. And I share the chairman's concerns, given our 
commitments in Afghanistan and Iraq, how long can we sustain 
this, and where is this going. So we look forward to your 
comments, we look forward to your further explanations, and I 
thank the chairman for the time.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 52.]
    The Chairman. Just a couple of things. Mr. Secretary, if 
you could hold until we have the cameras, give them an 
opportunity to leave.
    Now, the Secretary has a hard end time today at 12:30, so I 
will really push to keep us in the 5 minutes. If you have 5-
minute--excuse me, 11:30. What time did I say? No, 11:30, 
excuse me. And I will hold to 5 minutes. If you want to take 5 
minutes answering your questions, they will answer it in the 
record.
    Mr. Secretary.

 STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE, U.S. 
                     DEPARTMENT OF DEFENSE

    Secretary Gates. Thank you, Mr. Chairman. And thank you for 
the opportunity to speak to the ongoing international military 
operations in Libya. I would start by providing some context on 
how we got to this point, at least from my perspective.
    In the space of about 2 months, the world has watched an 
extraordinary story unfold in the Middle East. The turbulence 
being experienced by virtually every country in the region 
presents both perils and promise for the United States as 
stability and progress in this part of the world is a vital 
national interest.
    This administration's approach has been guided by a core 
set of principles that President Obama articulated in February 
opposing violence, standing for universal values, and speaking 
out on the need for political change and reform. At the same 
time we have recognized that each country in the region faces a 
unique set of circumstances, and that many of the countries 
affected are critical security partners in the face of common 
challenges like Al Qaeda and Iran.
    In the case of Libya, our government, our allies and our 
partners in the region watched with alarm as the regime of 
Muammar Qadhafi responded to legitimate protest with brutal 
suppression and a military campaign against his own people. 
With Colonel Qadhafi's forces on the verge of taking Benghazi, 
we faced the very real prospect of significant civilian 
casualties on hundreds of thousands of refugees fleeing to 
Egypt, potentially destabilizing that important country even as 
it is undergoing its own difficult transition.
    Once the Arab League and Gulf Cooperation Council called on 
Qadhafi to cease his attacks, and our European allies expressed 
a willingness to commit real military resources, it became 
apparent that the time and conditions were right for 
international military action.
    The goal of Operation Odyssey Dawn, launched on March 19th, 
was limited in scope and scale. The coalition quickly achieved 
its first military objective by effectively grounding Colonel 
Qadhafi's air force and neutralizing his air defenses. During 
this first phase the U.S. military provided the preponderance 
of military assets and firepower, as well as logistical support 
and overall command and control.
    Responsibility for leading and conducting this mission, now 
called Operation Unified Protector, has shifted to an 
integrated NATO command. Going forward the U.S. military will 
provide the capabilities that others cannot provide either in 
kind or in scale, such as electronic attack, aerial refueling, 
lift, search and rescue, intelligence surveillance and 
reconnaissance support. Accordingly, we will in coming days 
significantly ramp down our commitment of other military 
capabilities and resources in this operation.
    The NATO-led mission, like its predecessor, is a limited 
one. It will maintain pressure on Qadhafi's remaining forces to 
prevent attacks on civilians, enforce the no-fly zone and arms 
embargo, and provide humanitarian relief. There will be no 
American boots on the ground in Libya.
    Deposing the Qadhafi regime, as welcome as that eventuality 
would be, is not part of the military mission. In my view, the 
removal of Colonel Qadhafi will likely be achieved over time 
through political and economic measures and by his own people. 
However, this NATO-led operation can degrade Qadhafi's military 
capacity to the point where he and those around him will be 
forced into a very different set of choices and behaviors in 
the future.
    In closing, as I have said many times before, the security 
and prosperity of the United States is linked to the security 
and prosperity of the broader Middle East. I believe it was in 
America's national interest, as part of a multilateral 
coalition with broad international support, to prevent a 
humanitarian crisis in eastern Libya that could have 
destabilized the entire region at a delicate time. And it 
continues to be in our national interest to prevent Qadhafi 
from visiting further depravations on his own people, 
destabilizing his neighbors, and setting back progress the 
people of the Middle East have made in recent weeks.
    Mr. Chairman, I know you and your colleagues have many 
questions, so I will now ask Admiral Mullen to comment. As 
always, my thanks to this committee for all the support you 
have provided to our military over the years.
    [The prepared statement of Secretary Gates can be found in 
the Appendix on page 53.]

STATEMENT OF ADM MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    Admiral Mullen. Thank you, Mr. Chairman, distinguished 
members of this committee. I share the Secretary's gratitude 
for the opportunity to talk to you about coalition operations 
in support of the Libyan people. Let me start with a brief 
assessment of where we are today and then leave you with some 
impressions.
    As of early this morning, NATO assumed command of the 
entire military mission over Libya. There are more than 20 
nations contributing to this operation in all manner of ways, 
some public, some not so public. Contributions range across the 
board from active participation in strike operations to 
financial aid and assistance for humanitarian efforts. We are 
joined in this endeavor by several Arab countries who have, 
despite domestic challenges of their own, chosen to come to the 
aid of the Libyan people. I hope they do so knowing that the 
United States and the international community remain grateful 
for their experience and their leadership, but also knowing 
that no one military, no one nation can or should take on a 
mission of this nature alone.
    This coalition we have forged, in record time, mind you, is 
not only a coalition of the willing, it is a coalition of the 
able, with each nation bringing to the effort what they can in 
terms of knowledge and skill to tackle a very fast-moving, 
complex humanitarian crisis.
    Twenty-five warships patrol off the coast of Libya today, 
including two allied aircraft carriers, France's Charles de 
Gaulle and Italy's Garibaldi, each with combat aircraft 
embarked. There are also in those waters destroyers and 
frigates, patrol boats, oilers and submarines. There is even a 
U.S. amphibious ready group centered around the USS Kearsarge. 
On these ships and at European bases ashore, the NATO Commander 
from Canada, Lieutenant General Charles Bouchard, has at his 
disposal more than 220 aircraft of just about every size and 
stripe imaginable. With these pilots and these planes, he may 
operate freely throughout the Libyan airspace around the clock, 
studying and gaining intelligence of regime ground force 
movement and intentions, striking targets of opportunity on 
little or no notice, and preventing Qadhafi from using his own 
air force to attack his own people.
    I would note that among these coalition aircraft are more 
than a dozen from Qatar and the United Arab Emirates. Fighter 
pilots from Qatar have already flown more than 30 sorties in 
support of the no-fly mission. Indeed, in just the last 24 
hours, U.S., NATO and coalition aircraft flew some 204 sorties, 
110 of which were strike-related, hitting fixed and mobile 
targets in the vicinity of Tripoli, Misrata and Ajdabiya.
    We have such freedom of movement because we moved quickly 
in the early hours of the operation to render ineffective 
regime air defenses and command and control. The first cruise 
missiles and strategic bombers struck late Saturday night, the 
19th, Tripoli time. By midafternoon the next day, the no-fly 
zone was essentially in place.
    We have continued to strike Qadhafi's military capabilities 
where and when needed, and it is my expectation that under NATO 
leadership, that level of effort and focus will not diminish. 
What will diminish, as the Secretary said, is the level of U.S. 
participation in offensive operations as we turn our attention 
to providing our unique enabling capabilities.
    Mr. Chairman, I have been involved with allied and 
coalition operations of one kind or another for much of the 
last decade, from the Balkans to Iraq and Afghanistan. I cannot 
remember a time when so many nations mobilized so many forces 
so fast. The enemy wasn't just Qadhafi's military, it was also 
the clock as he marched on Benghazi intent on brutalizing the 
people there. But we were ready. Before the ink was even dry on 
that U.N. resolution, there were planes and ships, pilots and 
sailors moving into position ready to act. Today we are able to 
do that because we--and I mean the collective we, not just the 
United States--have invested in close relationships with one 
another, facilitated by nearby air and naval basing, and 
improved over time through annual exercises, personnel 
exchanges, actual combat experience and mutual dialogue.
    Nobody is underestimating the scope of the challenge before 
us. Qadhafi still possesses superior military capability to 
those of the forces who raid against him. He still shows every 
desire of retaking lost ground, and, in fact, did so yesterday. 
He still wants Benghazi back and Ajdabiya. He still denies his 
own people food, water, electricity and shelter. He threatens 
them on the streets of Misrata and Zintan, and he has made no 
secret of the fact that he will kill as many of them as he must 
to crush the rebellion.
    I will leave to our political leaders the task of debating 
the character of the mission we have been assigned, but I can 
assure you that your men and women in uniform will execute that 
mission now in support of NATO with the same professionalism 
with which they have led that mission until today.
    Again, thank you for allowing me to be here and thank you 
for your long-standing support of our men and women and their 
families.
    The Chairman. Thank you very much.
    I was pleased that the President finally addressed the 
Nation on Monday to explain his decision to introduce forces 
into Libya. He made his rationale quite clear. Utilizing U.S. 
warriors to protect civilians from a brutal dictator is a noble 
cause. But the President's strategy seems to consist of two 
mutually exclusive parts. The first is to protect Libya's 
civilians, which is now the responsibility of NATO forces. 
However, the President has also stated that Colonel Qadhafi 
must be removed from power. This is a political consideration 
and not part of the military mission. I am concerned that such 
a mismatch is a strategy for stalemate.
    Moreover, the President went on to observe that until 
Qadhafi steps down from power, Libya will remain dangerous. 
That sounds like foreshadowing for an enduring military mission 
to protect the Libyan civilian population.
    Secretary Gates and Admiral Mullen, how long do you 
anticipate our military mission will last? Under what 
circumstances is it permissible for Qadhafi to remain in power? 
If he does, will it be necessary for U.S. forces to remain 
engaged in Libya to protect civilians? If it is not permissible 
for Qadhafi to remain in power, why has the military mission 
been limited?
    Secretary Gates. First, Mr. Chairman, you have 
characterized it correctly in the sense that the military 
mission is a limited one and does not include regime change. 
Personally I felt strongly about that. We tried regime change 
before, and sometimes it has worked, and sometimes it has taken 
10 years. And it does, as has been the case in Iraq, sometimes 
involve both enormous human and fiscal cost. So that the idea 
here was basically to--the military mission, as you said, was 
to establish a no-fly zone and protect the Libyan people.
    I believe one of the characteristics of protecting the 
Libyan people has, in fact, been our effort to degrade the 
Libyan military. This is something that, after the initial Gulf 
war, we actually did not do in Iraq, even though we had a no-
fly zone. We didn't keep attacking Saddam's military 
capabilities as we are doing in Libya.
    As both the chairman and I have indicated, our role already 
has begun to recede to the support roles that I indicated. We 
will not be taking an active part in the strike activities, and 
we believe that our allies can sustain this for some period of 
time. But I think the one thing that may make a difference in 
terms of how long it takes for this regime to change is the 
fact that we continue to degrade his military capabilities, and 
I think that may contribute to some cracking of the unity of 
his own military. But the bottom line is no one can predict for 
you how long it will take for that to happen. But I can tell 
you that the military mission in our now support role will 
remain limited, as I have described it.
    Admiral Mullen. I would only add, Mr. Chairman, echoing 
what the Secretary said about being able to predict how long, I 
just don't think that that can be done right now. We have 
actually fairly seriously degraded his military capabilities, 
his air defense capabilities, his command and control 
capabilities. We have attrited his overall forces at about the 
20 to 25 percent level. That doesn't mean that he is about to 
break from the military standpoint, because that is just not 
the case. However, I do have great confidence in NATO's ability 
now in command with the resources it has available to be able 
to continue to attrit that capability and continue in the 
support role that the United States will to support that 
attrition. And then I think for the long term it is obviously--
as others have said, there are lots of tools in the kit, and to 
bring that kind of pressure on him, which gets to the eventual 
overall policy objective of his leaving.
    The Chairman. Thank you very much.
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    First of all, I want to agree with both of your remarks on 
that. I think regime change by military force, by a foreign 
military force, comes with a very high cost and a lot of 
unpredictability. I think it is perfectly consistent to say we 
want Qadhafi to leave, but the cost of doing it with U.S. or 
even NATO boots on the ground is entirely too high. We have to 
put pressure on him in other ways to drive him out.
    I think that is something that there has been some 
confusion about in the public, but I think it is a fairly 
consistent position. And certainly it does sometimes work, as 
we saw in the case of Milosevic in the former Yugoslavia. I did 
not think that was going to drive him out, but it did rather 
quickly. And if we can degrade the support for Qadhafi, degrade 
his military ability, I think that has a much better chance of 
succeeding in a clearer long-term path than any sort of 
military invasion.
    The question I want to ask is about the authority for doing 
this. I think there is also considerable consternation about 
that, particularly amongst my fellow Members of Congress. What 
is the legal constitutional authority for the President and the 
military to have acted without prior congressional 
authorization?
    And I think there is a lot of misunderstanding about the 
history of that within Congress and within the media, for that 
matter. This is not unprecedented. And there has been sort of a 
bipartisan feeling amongst both Democrat and Republican 
Presidents that Article II gives them the authority to act 
militarily. It happened in Kosovo, as I referenced, but also in 
Panama and Grenada, on a number of other examples going back 
decades, if not over 100 years. But we also have the War Powers 
Act that is out there that, as I understand it, it has been the 
position of every Executive that that is an unconstitutional 
infringement upon their Article II rights, and therefore they 
have not felt like they have to follow it. Certainly it wasn't 
followed again in the instances that I just mentioned.
    But if you could walk through your viewpoint on the 
authority, I think that would be very important for Members of 
Congress, because I don't think that was adequately explained 
at the briefing yesterday. And I think that leaves a lot of 
Members of Congress feeling like they have been completely left 
out, and that the law has not been followed. And I think that 
is a critical piece in building broader public and 
congressional support for any action going forward. So if you 
could talk a little bit about that, I think that would be 
helpful for us.
    Secretary Gates. First of all, this is not exactly my area 
of expertise, constitutional law. But I will say that I----
    Mr. Smith. If I could, I am sorry, as you point, you have 
been there a long time, you have been through a lot of these 
decisions, and I think you have something to say about it.
    Secretary Gates. I was actually in the White House on the 
NSC staff when the War Powers Act was passed in the mid-1970s. 
And I think it is fair to say that there has been disagreement 
between the Congress and the President ever since then on what 
is required of him under the War Powers Act.
    President Obama is the eighth President I have worked for. 
Seven operated under the War Powers Act. And I would say that 
his compliance in terms of consultation and notification of the 
Congress has been consistent with the actions taken by all of 
his predecessors, both Republicans and Democrats, since the War 
Powers Act was passed. There was a consultation with the 
congressional leadership before the military operations started 
on Friday, before Saturday night. About half were present in 
the situation room; about half were on a telephone conference 
call. The written formal notification of the Congress took 
place.
    So this has been an area of contention between the 
executive and the legislative branches for better than 35 years 
now, but I think that the President's actions are completely 
consistent with those of his predecessors and with the 
executive branch's interpretation of the War Powers Act.
    Mr. Smith. Thank you.
    The only thing I would add to that before yielding back, 
because I do think--and this is not for your gentlemen's 
benefit, this is more for the White House--yes, the Friday 
before we launched the attack, we did have that consultation. I 
think in the future, in the days and even weeks as we built up 
to this, it would have been better for the White House to have 
began discussions with key Republican and Democratic leaders as 
we built up to this decision. I don't think that was done 
sufficiently. And I think that would have helped Members of 
Congress be more supportive of the action once it eventually 
took place, understanding that was not your decision. I just 
think that would have been a critical issue.
    Thank you, Mr. Chairman, I yield back.
    Secretary Gates. Let me just add one sentence, and that is 
that the President actually did not make his final decision on 
what to do until Thursday night. And so having the Congress, 
having the leadership of the Congress, in the very next day 
seemed to me was pretty prompt.
    Mr. Smith. And I get that. I guess what I was saying was 
that we do not feel that it should wait until the final 
decision is made. There were a lot of things being discussed in 
the weeks leading up to this. Obviously we had gone to the U.N. 
in part to ask for the resolution that came down on Thursday. 
We knew it was coming. Even before the White House knows 
exactly what it is going to do. There is some benefit to 
bringing leadership and Congress into the discussion in terms 
of building support here. And I think that would have helped 
build more support in Congress if we felt we knew the thinking 
process leading up to that decision.
    Thank you, Mr. Chairman.
    The Chairman. And again, one of the problems is consulting 
Congress before a decision is made versus just telling us what 
is going to happen is probably, I think, what the ranking 
member is referring to and probably one of the things that 
would help the support in the Congress.
    Mr. Bartlett.
    Mr. Bartlett. Thank you.
    Mr. Secretary, I would like you to take my first question, 
if you would, for the record, because I know that others will 
need to be involved in formulating an answer. Under what 
circumstances would the President request authorization from 
Congress for the use of military force in Libya? And second, 
sir, if not for Libya, under what circumstances would the 
President request authorization from Congress to use military 
force in general?
    [The information referred to was not available at the time 
of printing.]
    Mr. Bartlett. Do you see the use of CIA [Central 
Intelligence Agency] and U.S. Special Forces in Libya as 
following the blueprint we used in Afghanistan?
    Secretary Gates. Well, first of all, I can't speak to any 
CIA activities, but I will tell you that the President has been 
quite clear that in terms of the United States military, there 
will be no boots on the ground.
    Mr. Bartlett. In Afghanistan we went in to assist a well-
organized resistance group, the Northern Alliance. We kind of 
took sides in a civil war and joined the side that was going to 
win anyhow.
    In Libya the only opposition group in recent history is the 
LIFG, the Libyan Islamic Fighting Group, a radical faction that 
has been waging jihad against the Qadhafi regime. Following the 
9/11 attacks against the United States, LIFG was banned 
worldwide by U.N. Resolution 1267 Committee. It is my 
understanding that the LIFG is aligned with AIGM.\1\ And in a 
column earlier this month, New York Times' Thomas Friedman 
noted that Libya is not a nation, there isn't any loyalty to 
Libya, it is a collection of 140 different tribes, much more 
like Iraq.
---------------------------------------------------------------------------
    \1\ Ed. Note: May be a reference to Al Qaeda in the Islamic 
Maghreb, AQIM.
---------------------------------------------------------------------------
    Sir, are we now aiding and abetting the same organizations 
that we are fighting in Afghanistan and Iraq?
    Secretary Gates. To be honest, other than a relative 
handful of leaders, we don't have much visibility into those 
who have risen against Qadhafi. But I think that in a way, 
speaking of the, quote/unquote, ``opposition'' is a misnomer 
because it is very disparate, it is very scattered, and 
probably each element has its own agenda.
    Each of these towns that rose up in the west where 
resistance has been quelled basically did so on their own, and 
you didn't see people going from one town to the next to share 
in the fight. And frankly, that is one of the problems that 
those who have rebelled against Qadhafi are facing is the lack 
of command and control and the lack of organization. So I would 
say there are multiple, multiple agendas, very disparate 
elements across the country engaged in this. And at this point 
we don't have a lot of visibility into those.
    Mr. Bartlett. What visibility we have, LIFG is, in fact, 
sir, a major component of the opposition?
    Secretary Gates. I am just not aware. I just don't know.
    Mr. Bartlett. My next question, sir, I know the premise is 
debatable, but many people feel that this is an 
unconstitutional and illegal war. But I think almost everybody 
agrees that the cost shouldn't be borne by taxpayers by 
increasing our $14 trillion debt or by raising taxes, and they 
shouldn't come out of the hide of DOD. That hide is pretty thin 
now, sir. That is why I introduced a bill that I know you are 
aware of that would make DOD fiscal year 2011 accounts whole by 
requiring the President to provide Congress a list of specific 
recommendations of nonsecurity discretionary appropriations 
rescissions for fiscal year 2011 by July 2nd.
    This bill exempts fiscal year 2011 spending for DOD, as 
well as the Departments of Homeland Security and Veterans 
Affairs. Mr. Secretary, the legislation requires that you 
report to the President no later than June 1st with estimates 
for total fiscal year 2011 expenses in Libya based upon 
expenses incurred through May 15, 2011.
    Is this a reasonable timeframe for you to assist Congress 
in our effort to ensure that the capability of our Armed Forces 
fighting in Afghanistan and Iraq are not degraded by the 
President's unconstitutional and illegal war?
    Secretary Gates. Well, first of all, I can tell you that 
our costs as of last Monday were about $550 million. And in the 
new support role that we assume today, we expect that the run 
rate--we estimate that the run rate will be about $40 million a 
month. So I can give you that information now.
    Mr. Bartlett. Is this date reasonable time for you to tell 
us what rescissions--what it will cost so the President can 
find the rescissions?
    Secretary Gates. Well, I would have to consult with the 
White House and OMB [Office of Management and Budget] on that.
    Mr. Bartlett. Would you do that for the record, sir?
    Secretary Gates. Yes, sir.
    Mr. Bartlett. Thank you.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Thank you.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Mr. Secretary and Admiral, thank you for being here. And we 
know you are working under very difficult circumstances.
    My question deals along the same lines as Mr. Bartlett's. 
We know that it has been difficult to continue to operate with 
the budget process tied up in a continuing resolution. So one 
of the concerns--well, two questions. One concern is we 
probably are going to get a request for a supplemental which 
will include Libya. And if so, will that also include 
Afghanistan and Iraq?
    And the second question, there is a lot of concern that 
with the action now against Libya, that somehow we are going to 
have to readjust the commitment that we are making, 
particularly in Afghanistan. As you know, I represent Fort 
Bliss, and there are a number of people that have expressed 
concerns that we are going to somehow shift some of our assets 
into Libya. Can you address both the supplemental and any 
potential for having to shift resources from particularly 
Afghanistan?
    Secretary Gates. We will not be shifting resources from 
Afghanistan. In fact, thanks to the cooperation of the 
Congress, we are just in the process of sending about $600 
million worth of additional ISR [intelligence, surveillance, 
and reconnaissance] to Afghanistan. And yesterday in a meeting, 
I approved coming forward with an effort to try and reprogram 
about another $400 million worth of ISR. So we will be adding 
ISR capability to Afghanistan, not taking it away, and we don't 
anticipate strike forces. There have been some electronic 
attack aircraft that have been moved from Iraq to the Middle 
East, but in a way that we felt was not--did not present any 
risk to our operations in Iraq.
    In terms of how to pay for this, we are in the discussions 
with the White House right now on this and OMB. I share your 
and Mr. Bartlett's view that it would be very difficult for the 
Department to eat this cost out of the base budget. There is an 
overseas contingency operations bill here before the Congress, 
and my personal view, I haven't coordinated this with the White 
House or OMB, but I think we ought to be able to find a way to 
deal with this in the framework of that bill without adding to 
the top-line number of that bill.
    I would add, though, just in terms of my interests as 
Secretary of Defense in keeping this operation limited is the 
strain that we have on our military. And one of the things that 
people haven't talked much about, we have 19 ships and about 
18,000 men and women in uniform helping on the Japanese relief. 
There are going to be some costs associated with that also that 
are going to have to be taken care of. So between these two 
operations, I would just make a final pitch, for those who are 
contemplating deep cuts in the defense budget, looking around 
the world at the kinds of commitments that we have and the 
potential challenges that we have, I think it bears very 
careful consideration.
    Mr. Reyes. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman. And thank you both for your work.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much, Mr. Secretary 
and Admiral Mullen.
    I must tell you that, home for the last week, that the 
American people are just so disenchanted, the people of the 
Third District, that the President seemed to say to Congress, 
you really aren't a fact in whether we do or do not. And I 
guess that can be debated, and I am not trying to get into 
that. But I get so upset when I hear--and, Mr. Secretary, I 
have great respect for you and enjoyed seeing you and Secretary 
Clinton on the interviews this weekend--when you say that we 
can't tell you when it is going to end. I understand that. But, 
you know, there again, we are going to be in Afghanistan for 4 
or 5 more years, maybe 10, I don't know.
    But anyway, we are not a strong nation. We can't pay our 
own bills right now. I had three wives of marines down in Camp 
Lejeune that called my office yesterday wondering about a 
shutdown. Their husbands are overseas in Afghanistan. They are 
worried about whether they are going to get a check. They have 
got children at home.
    But, you know, that is not really where I want to go. But I 
just want to try to put it where my people see it in my 
district. This Qadhafi is absolutely evil, and yet we take the 
lead on everything. I don't know where the other countries are. 
Why in the world don't they take the lead on something?
    And, yes, Admiral Mullen this will be a question for you, 
and I have got one for the Secretary in just one second.
    If NATO is in the lead, does that mean we can reduce our 
military involvement and reduce the spending of these Tomahawk 
missiles at $1 million apiece? That would be my question to 
you.
    And, Mr. Secretary, under what circumstances as it relates 
to the President's decision to go into Libya--this is 
piggybacking on what Mr. Bartlett was asking, but under what 
circumstances do you see--would you see that a President should 
come to Congress before he or she at some point in the future 
makes a decision like has been made about Libya, that the 
decision is, well, you know, okay, Congress, we will talk to 
your top leadership, we will tell them what we are going to do, 
and yet to ``The People's House'' there is no consultation at 
all. And I just think that the American people are just tired 
and fed up.
    So my question to you is under what circumstances would you 
believe that the President should come to Congress and make a 
request for military use in Libya? Do you see any circumstances 
other than what has been done so far where a President--I will 
take it away from Mr. Obama, but you are a leader of this 
Nation, you will leave one day just like I will. When does the 
President understand that he has got a responsibility to inform 
Congress, because truthfully we have been left out in the cold 
on this one.
    So, Admiral, I have got my question to you, I believe; I 
have got a question to Mr. Secretary, if I made it clear 
enough; and if you would answer, I would appreciate it. 
Admiral.
    Admiral Mullen. The short answer with respect to our 
commitment is, yes, it will be significantly reduced literally 
starting today. We actually went in fairly heavy early, and 
actually it was in great part at the request from a leadership 
standpoint of our allies in Europe originally. So you will see 
us come down fairly dramatically here over the next few days 
and then sustained at a level of support in the areas the 
Secretary has mentioned.
    The other thing that I would just mention briefly in terms 
of confidence in NATO, I have sat in this same room over many 
years, and NATO has been very badly berated because they 
wouldn't lead, they wouldn't contribute forces, they wouldn't 
do things that we would want them to do, and we were carrying 
the load. In this case it is actually the opposite. I mean, 
NATO has taken the lead, done so very rapidly, essentially set 
this--approved its own rules, if you will, and operational 
plans to execute this mission in record time. And NATO has 
evolved, like many of us, but NATO has evolved in ways where 
they are really contributing a significant amount of capability 
in all four aspects of this mission: no-fly zone, arms embargo, 
civilian protection and humanitarian assistance. And I think 
they will continue to do that.
    Secretary Gates. The answer to your question is better 
provided by individual Presidents, Mr. Jones, because they all 
make their own judgments on these matters, I think, as you all 
are well aware. There has not been a formal congressional 
declaration of war, as far as I can recall, since World War II. 
There have been different kinds of resolutions, resolutions of 
support. Presidents have sought them sometimes. Congress has 
passed them without the request of Presidents sometimes. As 
Secretary Clinton has said, we obviously would welcome an 
action by the Congress in support of what the President has 
done. That would obviously provide an opportunity for debate.
    The seeking of a resolution such as even short of a 
declaration of war depends very much on the specific 
circumstances involved. And just to give you an example, I was 
asked in the Senate in a hearing several years ago whether I 
thought the Congress--thought the President had an obligation 
to come to the Congress if he were to decide to use military 
action against Iran. And I said I thought so, because I think 
that the nature, scope and duration of such a potential 
conflict would require it. But I think the bottom-line answer 
to your question is that is a judgment call that each President 
needs to make.
    Mr. Jones. Thank you.
    The Chairman. Thank you.
    Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary and Mr. Chairman.
    First I hope you would convey to the men and women under 
your command how proud we are of them, how grateful and how 
supportive.
    Second, to each of you, but particularly you, Mr. 
Secretary, thank you for providing a very artful example of a 
combination of candor and duty at the same time. We appreciate 
and admire the way you conduct yourself.
    Mr. Secretary, if you came to us for your posture hearing 
in February of next year, and you reported to the committee 
that the strategic mission in Libya had been a success, not 
just the military side but the entire strategic mission had 
been a success, what would that look like?
    Secretary Gates. Well, I think a policy success would be 
the removal of the Qadhafi regime and at least the beginnings 
of the emergence of a more or less democratic government in 
Tripoli.
    Mr. Andrews. Admiral Mullen testified a few minutes ago 
that at present, I think I have this right, that the Qadhafi 
forces still maintain a military capability superior to that of 
the rebels. If that condition were to persist, what is the next 
strategic move on the military side that would be necessary to 
achieve that success that you just outlined?
    Secretary Gates. Well, I think I can speak with some 
confidence that the President has no additional military moves 
in mind beyond what he has already authorized, which is the 
support of a no-fly zone and the humanitarian mission. So I 
think that what the opposition needs as much as anything right 
now is some training, some command and control, and some 
organization. It is pretty much a pick-up ballgame at this 
point. And as I got a question yesterday in one of the 
briefings, the truth is in terms of providing that training, in 
terms of providing assistance to them, frankly there are many 
countries that can do that. That is not a unique capability for 
the United States, and as far as I am concerned, somebody else 
should do that.
    Mr. Andrews. I think the administration has outlined a 
strategy that essentially goes like this: That we will use the 
military coalition to create the conditions under which 
economic and diplomatic and military efforts by the rebels can 
create success.
    There are two things that trouble many of us about this 
mission. The first is a constitutional issue about the way we 
made the decision to get here in the first place. That is 
really not your purview. The decision was made, and I think 
that is a discussion between the head of the executive branch 
and the Congress.
    The second thing that troubles a lot of us is that although 
we are hopeful that that strategy will succeed, that by setting 
those conditions we will achieve the result that you 
articulated, and there will be a new government in Tripoli that 
looks something like a democracy, our concern is what if it 
doesn't succeed? Now, we don't want to speculate on failure 
because that is not a very smart thing to do. But I think there 
clearly is a concern that we need to have a plan B. Do you have 
any sense of what the plan B would be if this one doesn't work?
    Secretary Gates. Well, I think keeping the pressure on 
Qadhafi has merit and is a worthy objective on its own. One of 
the concerns that I think weighed on the President and on all 
of us was that with his military power and his money, that 
Qadhafi's ability to disrupt the democratic transitions going 
on with both of his neighbors, Tunisia and Egypt, was 
considerable. And as his own people rose up against him and he 
began to suppress them, there were many, many foreign workers 
in Libya that felt themselves at risk. And so there are over 1 
million Egyptians, for example, in Libya, which is one reason 
the Egyptian Government has frankly been so cautious, because 
of the lives of those Egyptians.
    So I think degrading his military capability, keeping him 
under pressure so that he cannot disrupt what is going on in 
Tunisia and Egypt, send waves of immigrants to those countries 
and to southern Europe, including Italy, all of those things 
have merit and value on their own, in my view.
    Mr. Andrews. Thank you very much.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Secretary, if tomorrow a foreign nation intentionally, 
for whatever reason, launched a Tomahawk missile or its 
equivalent to New York City, would that be considered an act of 
war against the United States of America?
    Secretary Gates. Probably so.
    Mr. Forbes. I assume the same result would be true, and the 
same laws would apply, and the same reasoning would apply if we 
launched a Tomahawk missile at another nation; is that also 
true?
    Secretary Gates. Well, you are getting into constitutional 
law here, and I am no expert on it.
    Mr. Forbes. Mr. Secretary, you are Secretary of Defense. 
You ought to be an expert on what is an act of law--act of war 
or not. If it is an act of war to launch a Tomahawk missile at 
New York City, would it not also be an act of war to launch 
that by us on another nation?
    Secretary Gates. Presumably.
    Mr. Forbes. Mr. Secretary, a foreign leader recently made a 
statement, and I have a lot of respect for him, that the whole 
world looks like it is in an earthquake, and everything is 
shaking. When you are in an earthquake, sometimes the only 
thing that keeps you from shaking is the rule of law, and many 
of us are very concerned about that.
    I listened today at some of the justifications for the rule 
of law here. I heard this word; well, this was okay because it 
is cover. There is nothing that cover does to change the rule 
of law. I heard that, well, we had a chance for success. There 
is nothing that success does to change the rule of law. I 
heard, well, this is a humanitarian crisis. That doesn't change 
the rule of law. Syria is a humanitarian crisis. Should they be 
scared to death we are going to bomb them tomorrow? I heard 
that it was limited to scope and scale, which basically means a 
small war is okay, but a big one is not. Well, the difficulty 
is we have a hard time predicting the little ones from the big 
ones. And then I heard it is okay to bomb the heck out of them 
as long as we say our goal is not regime change.
    Mr. Secretary, for the rule of law we have got a very 
simple statute, the War Powers Act, which you said you were 
around when that was written. It doesn't require declaration of 
war, it requires one of three things. And I know you are 
familiar with them, but I am just going to read them. It says 
our forces should not be put into hostilities or imminent 
hostilities by the Commander in Chief unless one of three 
things happen; a declaration of war, specific statutory 
authorization, or a national emergency created by an attack on 
the United States or its forces.
    My question for you today is which of those three things 
took place to justify this act, or if it didn't, is it the 
administration's position, to the best of your knowledge, that 
they simply don't have to comply with the War Powers Act?
    Secretary Gates. It has been the position of every 
President since the War Powers Act was passed that the kind of 
action that we have undertaken is compliant with law.
    Mr. Forbes. And, Mr. Secretary, I would like just to try 
one more time. Could you just tell me which of those three 
provisions--a declaration of war, specific statutory 
authorization or a national emergency created by an attack on 
the United States or its forces--were applicable in this 
particular situation?
    Secretary Gates. It has been the view of every President 
since the War Powers Act was passed that the kind of action we 
are taking is compliant with the law.
    Mr. Forbes. So in other words, once again on the rule of 
law, it is kind of like obscenity, we know it when we see it.
    We can't put these actions in one of those three 
categories; therefore the conclusion we have to reach is that 
the President just feels that he doesn't have to comply with 
the War Powers Act, and maybe that is what every single other 
President has felt as well. But I can just tell you in this 
shaking time in the rule of law, it doesn't help us when we 
have these conclusions that the end justifies the means.
    And, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to both of you for being here.
    This is a difficult time, obviously. There are so many 
activities going on around the world, we appreciate the fact 
that you are there.
    Mr. Secretary, I think that we all are often in a position 
of our words being used against us, and in this case I think 
the comment that you made about our national interest is one 
that I wanted to give you an opportunity to clarify even beyond 
the statement that you made in closing this morning. Could you 
please do that, and, I think, respond to the fact that this was 
obviously, I think, a reluctant move on our behalf, and wanted 
to give you both perhaps an opportunity to even respond to 
that.
    Secretary Gates. Well, I think that what happens in Libya 
is clearly in our interest. What happens in the Middle East is 
of vital interest. And what is going on in Libya, I think, has 
an impact on the rest of the region. And I think Qadhafi 
unrestrained could have had a very negative effect on the 
democratic revolutions that are taking place across the region.
    I think it is also important to bear in mind that our 
allies, particularly Britain and France, but a number of 
others, have come to our assistance in Afghanistan. They have 
put up 50,000 troops, nearly 50,000 troops, because we felt 
Afghanistan was in our vital interest. Britain and France and 
our other allies clearly believe that what is going on in Libya 
is a matter of vital interest for them. And so I think that one 
aspect of this that hasn't been touched on is that we are 
stepping up to help the same allies who have helped us in 
Afghanistan. They have now taken over the lead of this.
    I think this is consistent with Libya being in our interest 
because of our allies' interest in it, but also I think the 
vital importance of the region as a whole. And I think one of 
the things that differentiates this, you know, we have been 
dealing with Qadhafi for over 40 years. I cannot recall a 
single instance in the last 40 years in which the Arab League 
has called for action against one of their own members.
    And so you have the Arab League, you have NATO, you have 
the United Nations all expressing the view that action needed 
to be taken against this guy. And I think that this is an area 
where the United States is now receding to a supporting role, 
recognizing the strain on our resources and our men and women 
in uniform, and I think that comports with our interests.
    Admiral Mullen. I would only add, ma'am, that from the 
military perspective, it is not up to me or those of us in the 
military to define our national interests. It is up to us to 
defend them, and that is really what we do.
    Mrs. Davis. I would not necessarily get into a ``what if '' 
game, but I also want you to, if you could, respond to the 
possibility that Colonel Qadhafi could comply with U.N. 
demands. And I am wondering whether the administration would 
want to accept the continuing existence of his regime?
    Secretary Gates. Well, I think that the political future in 
Libya needs ultimately to be decided by the Libyans themselves. 
The circumstances under which he would be allowed to remain are 
hard for me to imagine, but there are conditions that the 
President has put down in terms of a cease-fire that would 
include him withdrawing from the cities that he has occupied, 
restoring the utilities and so on, and stopping killing his own 
people. Everything that we have seen to this moment suggests 
that he is not in compliance with any of those things.
    Mrs. Davis. Is it possible that the rebels themselves would 
not respect a cease-fire, that they would want to continue 
giving a scenario that we don't see today where there is 
strength behind that effort?
    Secretary Gates. Well, again, I just don't know the answer 
to that. I think that there are a lot of different diplomatic 
players involved even now with outreach from both the rebels 
and from various people in Qadhafi's camp. And what the outcome 
of those talks may be, I just cannot foresee at this point.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Secretary, do you think it is time that there was some 
type of resolution, either judicial--I guess it would have to 
be judicial--about this conflict on the War Powers Act between 
the Legislature and the executive body?
    Secretary Gates. I am not going to wade into that, Mr. 
Miller. That is up to the Congress and up to the President.
    Mr. Miller. Did I hear you say that the President would 
appreciate a vote on a resolution of support from this Congress 
on our Nation's involvement in Libya?
    Secretary Gates. That such a resolution would be welcome, 
yes.
    Mr. Miller. Would you be willing to speculate what that 
vote would be?
    Secretary Gates. No, sir.
    Mr. Miller. Could you or Admiral Mullen discuss our plans, 
if any, regarding arming the rebels? They seem to be getting 
their butts whipped.
    Admiral Mullen. Well, consistent with what the Secretary 
said, we know a few of their leaders, but there is just a whole 
lot more that we don't know. And so we certainly are looking at 
options from not doing it to doing it. There is a fairly 
standard way to do this, to train and equip, that we are 
familiar with. But I also would repeat what the Secretary said: 
We are not the only ones that are familiar with this. There are 
plenty of countries who have the ability, the arms, the skill 
set to be able to do this. And that is in significant both 
discussion and debate right now, but heretofore no decision has 
been made to do that.
    Mr. Miller. What would the effect be on current activities 
if we can't reach a budget resolution and this government were 
shut down?
    Secretary Gates. Well, as I think we have indicated before 
to the committee, even under the continuing resolution, there 
are severe consequences already for the Department of Defense. 
There will essentially be no military construction for fiscal 
year 2011. There are a number of acquisition programs----
    Mr. Miller. I apologize. Specifically Libya.
    Secretary Gates. I am sorry?
    Mr. Miller. Specifically Libya. We are not building 
anything in Libya, I don't think.
    Secretary Gates. I misunderstood your question.
    Mr. Miller. Yeah. If the government were to shut down, what 
would the effect be on the activities we are currently involved 
in in Libya?
    Secretary Gates. My understanding of the law is that it 
would not impact any current military operations.
    Mr. Miller. Why did the President notify Congress quickly? 
You said the next day after he made the decision. What was his 
reasoning for notifying the Congress?
    Secretary Gates. I think that it is consistent with the 
actions that I have seen of other Presidents of wanting to 
inform the Congress, the leadership of the reasons for his 
action and to solicit their support.
    Mr. Miller. And did he get it, the support?
    Secretary Gates. Other than one Member who raised the War 
Powers Act issue, there really wasn't much discussion.
    Mr. Miller. What support did he ask for from the Congress?
    Secretary Gates. Well, he wanted them to understand what he 
was doing and that there would be public support from the 
Congress.
    Mr. Miller. We don't understand what he is doing still, and 
I don't think he has the support of this Congress. But that is 
my personal opinion.
    I yield back.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    I will give you my assessment of a vote in Congress. It 
would be truly bipartisan on the yeas and the nays. I think 
that is kind of where this House is right now, a lot of folks 
on different sides of this issue in both parties. And the 
reason for this hearing is to get a better idea, try to settle 
some of those thoughts that folks are having.
    In the spirit of the social media revolution that set all 
of this off in the Middle East, I actually tweeted last night 
telling people you were going to be here and asked for some 
questions from folks. I actually got a good one back. It has to 
do with the opposition. It has to do with the idea that the 
removal of Qadhafi will likely be achieved over time through 
political and economic measures and by his own people. It is 
from your testimony, Mr. Secretary. And a question that came 
back regarding that issue is how does a disparate opposition 
that is multiheaded or in some respects leaderless organize to 
defeat Qadhafi without additional help beyond what is being 
provided right now? If the military mission is just to protect 
the civilian population and to enforce a no-fly zone, but you 
have this opposition that has many heads and no leaders, how do 
they organize?
    So the specific question I have with regards to that is 
what specific steps are we directing to organize these rebels 
so that we help that objective, if that is one of the 
objectives in Libya?
    Secretary Gates. Well, again, as I said earlier, part of 
the challenge here is that the opposition is or the rebels are 
so disparate and so scattered. You know, the truth is that 
there was a certain point not too long ago when almost all the 
major cities in Libya were in the middle of uprisings, and 
there is very little indication of much coordination or contact 
among them. It was basically a spontaneous uprising in one city 
and town after another. And in many of them, they were able to 
either turn the Qadhafi military or chase them out of town. So 
the notion that the Libyan people can't do this, I think, is 
contradicted a bit by that earlier experience.
    As I said in response to another question, we really have 
very little insight into the very different pieces of this 
opposition. And one of the things that obviously needs to 
happen is for there to be some unity, but frankly--among them. 
But frankly, we have little means of doing that at this point.
    Mr. Larsen. And I think that is one of the concerns is that 
does the rebellion have legs to it without a lot more help? And 
so we go through this military mission and at the end of it 
still don't get the payoff, if you will.
    Secretary Gates. Well, I think that the degradation of 
Qadhafi's military over time does create the circumstances that 
makes it easier for these people. I mean, we are blowing up his 
ammunition supplies. He can't resupply from abroad any of the 
things that have been lost, so it will be difficult for him to 
recuperate or to restore his military capabilities. And over 
time that should work to the advantage of those in opposition.
    Mr. Larsen. It is my understanding that the administration 
has--I think the words have been used--has yet to make a 
decision on whether or not to arm the rebels; that is, to sort 
of take advantage of the language of the U.N. Resolution 1973. 
So given that there is a decision yet to be made whether you do 
it or not, can you at least provide--you know, what are the 
three or four top criteria the administration would use to make 
that decision?
    Secretary Gates. Well, we haven't really addressed this 
issue, quite frankly, up until this point. And I would just 
share with you my view is this is something that a lot of other 
countries can do. And one of the things that I think makes 
Libya different in terms of what is going on there right now is 
that the United States is in support of others, and others have 
been taking a much more aggressive stance in that respect, if 
you will. And my view would be if there is going to be that 
kind of assistance to the opposition, there are plenty of 
sources for it other than the United States.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman, Mr. Secretary, Admiral 
Mullen, for being here.
    I want to also acknowledge our men and women who are 
serving. We are all so grateful to what they do to keep our 
country safe.
    Mr. Secretary, I want to thank you as others have for your 
candor, because you are answering some very difficult and 
uncomfortable questions honestly and directly, and I appreciate 
that.
    I also want to associate myself with Mr. Forbes' comments 
concerning the approval process and congressional concern that 
the War Powers Act has not been complied with.
    And I want to also associate myself with Mr. Miller's 
comments, that I do not believe that the only issue you are 
facing is an issue of lack of congressional approval. I think 
that there is significant question as to whether or not you 
have congressional support. I can tell you that I believe that 
if you placed a resolution on this floor today for a vote for 
approval, that I doubt that it would pass, and I certainly 
would not be voting for it. And I would not be voting for it, 
Mr. Secretary, because of the answer you gave us with your 
candor of who it is that we are supporting.
    This mission is unclear, and the goals are unclear, because 
as your answer is when we ask who are the rebels, you say, 
other than a handful, we don't have much visibility; and then 
you say, I am not aware, I don't know.
    We don't know. We don't know who they are. We don't know 
what their position is with the United States. We don't know 
what they will do if they are successful. We don't know what 
form of government they will pursue. We don't know their 
geopolitical position with their neighbors, with NATO or with 
us. Therefore, many of us are very concerned as to overall what 
would be the outcome here. And without us knowing the questions 
that you have answered honestly and with candor that we don't 
know, I think it is very difficult for anyone to say that they 
could believe that this outcome will be positive. And on one of 
those outcomes that I am concerned about is what does it say 
from a policy basis, what does it say on a doctrine basis, and 
what does it say in the region?
    Could you please tell me how much consideration was given 
to the United States efforts for Iranian nonproliferation 
initiatives when this decision was made to go into Libya?
    Secretary Gates. The consideration to Iranian----
    Mr. Turner. Nonproliferation initiatives or ongoing efforts 
with Iran on nuclear nonproliferation.
    Secretary Gates. I can tell you that I haven't heard a 
single question in this hearing or in the briefing yesterday 
that wasn't debated intensively during the administration's 
deliberations on this. So I think all of the ramifications of 
potential action were addressed.
    But let me just add one more thing. We may not know much 
about the opposition----
    Mr. Turner. Just a second. Before you do that, I really am 
very interested in what considerations on the issues of the 
Iranian nuclear nonproliferation initiatives. You said, you 
know, everything was considered. What was considered, and how 
was it considered?
    Secretary Gates. I think the judgment was that it would 
have--that this action with respect to Libya would have 
essentially no impact with respect to the Iranian nuclear 
program.
    Mr. Turner. And here is my concern. As you know, and when 
we invaded Iraq in 2003, Libya had commenced a nuclear program 
and weapons of mass destruction program. And as you know, they 
cooperated with the United States and tendered, delivered to us 
the assets of that program, participated in inspections, and 
had been cooperating with us on this issue. And my concern is 
what does it say to Iran at this time as they look to our 
action and whether or not this would harden their regime and 
put their regime on a faster-paced effort for a nuclear weapons 
program?
    Secretary Gates. My view is that in terms of what they want 
to try and achieve in their nuclear program, they are going 
about as fast as they can. And it is hard for me to imagine 
that regime being much harder than it already is.
    Mr. Turner. Thank you.
    Your comments then about the rebels.
    Secretary Gates. What I was going to say is we may not know 
much about the opposition or the rebels, but we know a great 
deal about Qadhafi. The jersey barriers that first appeared 
here in Washington appeared not after 9/11, but in 1983, after 
we received a number of clandestine reports indicating that 
Qadhafi wanted to kill President Reagan. We then had the La 
Belle disco attack that killed 12 American servicemen that 
Tripoli was responsible for. That led to the President's 
bombing, President Reagan's bombing, of Libya.
    This guy has been a huge problem for the United States for 
a long time. And the reason the Arab League came together, and 
the reason that the U.N. voted, and the reason that NATO has 
supported this is not because they know a lot about the 
opposition, but because they know a lot about Qadhafi. And they 
know what Qadhafi was not only going to do to his own people, 
but his potential for disrupting everything that is going on in 
the Middle East right now.
    So I think in the eyes of many of the participants in this 
coalition, this was more a preventive action to keep Qadhafi 
from pursuing his depredations as much as it was supporting the 
opposition.
    The Chairman. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. And I also 
would like to welcome Secretary Gates and Admiral Mullen.
    And at this time, Mr. Chairman, I wish to yield my time to 
the gentlelady from Hawaii, Mrs. Hanabusa.
    The Chairman. The gentlelady is recognized for 4 minutes 
and 45 seconds.
    Mrs. Hanabusa. Thank you. Thank you Mr. Chairman. And thank 
you, Congresswoman Bordallo.
    Secretary Gates, are you at liberty or do you know what it 
is going to cost us or what it has cost us to date, our actions 
in Libya?
    Secretary Gates. Yes. Through last Monday, it was about 
$550 million. And going forward in the reduced role that we 
will be playing, we estimate the cost will be around $40 
million a month.
    Mrs. Hanabusa. You also mentioned the cost of Japan. It was 
19 ships that we have deployed and about 18,000 of our service 
personnel in the relief efforts. And it also had to come out of 
a budget. Do you know how much that is costing us?
    Secretary Gates. No.
    Mrs. Hanabusa. Do you know if it is around the 500-some-odd 
million dollars?
    Secretary Gates. No. It is significantly less than that.
    Mrs. Hanabusa. Less than that.
    You also mentioned that you believe that the amounts would 
be covered out of the OCO [Overseas Contingency Operations] 
budget; is that correct?
    Secretary Gates. No. I said that was my opinion, that this 
is a matter still under discussion with the White House and 
OMB.
    Mrs. Hanabusa. But it is going to be coming out of 
somewhere in the defense budget?
    Secretary Gates. I would expect that to be the case.
    Mrs. Hanabusa. And if there is no supplemental--just assume 
that--it would still come somewhere out of the defense budget 
that we are dealing with today, correct?
    Secretary Gates. Probably. But if there is no OCO, we are 
also in big trouble in Afghanistan and Iraq.
    Mrs. Hanabusa. And we also know that time and time again, 
members of the Department of Defense have come forward and said 
the CR [continuing resolution] is just preventing you from 
making any kind of long-term determination or planning. So I am 
now very curious about if it comes out of OCO, if the OCO goes 
through the way it is now, would you be able to cover these 
costs?
    Secretary Gates. I think so, yes.
    Mrs. Hanabusa. So, Secretary Gates, that causes somewhat of 
a problem in the sense that if we are cutting the budget, or if 
the CRs have cut the budget as much as it can, I am curious as 
to how you are going to now be able to accommodate a cost of 
$550 million and $40 million a month plus whatever Japan may be 
costing us out of that OCO budget that is supposed to already 
be cut pretty close to the bone. So how are you going to do 
that?
    Secretary Gates. Because there are several billion dollars 
in there that was moved around principally by the Congress that 
we think we can recover that would cover these costs.
    Mrs. Hanabusa. And when you say it was moved around by the 
Congress, are you saying that it is still within the budget 
itself, and you are just----
    Secretary Gates. Yes. The things that we don't need or 
want.
    Mrs. Hanabusa. Do you realize that as we are all looking 
for money, that to say that there is a couple of billion 
dollars out there that you don't need or want that the Congress 
is doing, it kind of leads us to wonder, okay, where are they, 
so that if we have to cut, what are we going to cut?
    Secretary Gates. I think that the Congress has already done 
that with the OCO.
    Mrs. Hanabusa. Well, I realize that, but you are saying 
there are several billion dollars that you are still going to 
be able to cut, and you are going to be able--that is not what 
you want, and that is how you are going to fund it.
    Secretary Gates. No. I am saying that we could substitute 
these costs for other costs that are in the OCO.
    Mrs. Hanabusa. And what are those costs, Secretary?
    Secretary Gates. I would have to get that for you for the 
record.
    Mrs. Hanabusa. I really would appreciate that because I 
would like to know what that is.
    [The information referred to was not available at the time 
of printing.]
    Mrs. Hanabusa. You also said--and it is referred to 
constantly--that there will be no boots on the ground in terms 
of Libya. That is correct, right? Now, can you also tell me at 
this present time, do our, quote, ``allies'' or the NATO forces 
or Operation--what is the new name now? Anyway, Unified 
Protector. Are there any boots on the ground at this time in 
Libya?
    Secretary Gates. Not that I am aware of.
    Mrs. Hanabusa. So we are saying we are not going to put any 
boots on the ground, but neither have our allies?
    Secretary Gates. That is my understanding. And to tell you 
the truth, the opposition has said they don't want any.
    Mrs. Hanabusa. So is there any attempt, or do you know if 
there is any time in the future, that there are going to be 
boots on the ground in Libya?
    Secretary Gates. Not as long as I am in this job.
    Mrs. Hanabusa. I know that is on our side. But do you know 
if the ally----
    Secretary Gates. The allies? I have no idea.
    Mrs. Hanabusa. There has been no discussion as to when they 
would put boots on ground, no?
    Secretary Gates. I don't think so.
    Mrs. Hanabusa. And under what conditions?
    So it could be that they were saying there was no boots on 
the ground, no one has any intention of putting boots on the 
ground, that it may just continue with this air strike?
    Secretary Gates. Well, as I indicated, the rebels 
themselves have said they don't want any.
    Mrs. Hanabusa. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    I want to sort of dig into this NATO operation thing and 
see if we all agree and understand. We have a NATO operation in 
Afghanistan right now; is that not correct?
    Admiral Mullen. Correct.
    Mr. Kline. Isn't that what we have?
    Admiral Mullen. It is NATO plus about another 21 or 22 
noncontributing----
    Mr. Kline. Exactly, exactly. But it is a NATO operation, 
and there are other contributing nations. And we have a 
commander who happens to be an American in this case, General 
Petraeus, running that, and he has got sort of an interesting 
chain of command. He is the Central Command, General Mattis is 
involved in this, and I assume Admiral Stavridis is involved in 
this. And there is a chain that comes up to you, Mr. Chairman, 
and you, Mr. Secretary. But it is essentially a NATO operation. 
And our NATO partners there have caveats.
    I know, Mr. Secretary, in hearing after hearing, we all 
felt your frustration as you went and talked to the NATO allies 
in this NATO operation and said, you know, you have got to get 
rid of some of these caveats, we have got to get you out in the 
field, we have got to get you out of the wire and get you 
engaged and get you to contribute more.
    And as you said, Admiral, we have other nations who are not 
part of NATO who are involved there. And now we are involved in 
another NATO operation. We have turned over control of NATO as 
like that is somebody else, those are other people, it is not 
us. But we are part of NATO, and we are in a supporting role 
here, but we are still part of NATO. And in this case, this 
operation has a Canadian lieutenant general who is commanding, 
but he has got a command structure, and presumably it goes to 
Admiral Stavridis again.
    So I am just a little bit hesitant to look at this as 
though we have turned this over to somebody else. We are now 
involved in a NATO operation, and there are countries with 
caveats, like, oh, the United States has a caveat that we won't 
put boots on the ground. I am not being critical of that 
caveat, I am just trying to put this in the context of what is 
going on here. This is a NATO operation. It involves the United 
States as part of NATO. NATO forces are involved in this. Our 
U.S. forces have caveats on what we will and will not do. Is 
that roughly correct? Either one of you.
    Admiral Mullen. Yes, sir, it is roughly, although the 
caveat issue in particular with respect to ISAF [International 
Security Assistance Force]--I mean, to a point that I don't 
even track them anymore because so many of them have been taken 
off the table by our NATO allies.
    Mr. Kline. I understand. And I don't mean to interrupt, but 
I am on the clock. And I do appreciate, and I am sure the 
Secretary appreciates, a lot of those caveats gone away, and 
our NATO allies in Afghanistan are much more engaged than they 
were when the Secretary was sitting in front of this committee 
2, 3, 4, 5 years ago or however many years ago it has been.
    But I just want to get this in the context that they are 
different operations, but they are both NATO, our forces are 
involved, we are clearly heavily engaged in Afghanistan, we 
have the most forces, we are the most active, we have the 
fewest caveats and so forth. But our forces are involved here 
as well, and when we say we have turned this over, that is just 
a little bit misleading. We are still part of this operation. A 
NATO operation doesn't mean it is some foreign operation. This 
is a command structure which we are not only an integral part 
of, but we are the leaders of.
    Admiral Mullen. We clearly are integral to this. But what 
the Secretary said, and what I said, is we really are in 
support here. So the staffs are much more integrated with 
NATO--individuals from NATO countries.
    Mr. Kline. But if I could, we are not supporting somebody 
else. We are part of this. We have a smaller role than we had 
until this morning, but we are still part of a NATO force.
    And I want to put it in that context because whoever is 
flying the planes that are releasing the munitions to destroy 
tanks and Qadhafi forces and degrade his army and so forth, we 
are still part of that force.
    And so I am trying to get at the mission piece of this, and 
I am not going to have any time to do it. But very quickly I 
want to ask this question. If you looked at a city like Sirte, 
where you really didn't have this humanitarian crisis, it is 
Qadhafi's hometown, as far as we know there weren't protests 
there, if the rebel forces move into Sirte or are trying to get 
into Sirte, and Qadhafi's forces are just trying to keep them 
out, is this part of the humanitarian role? What would be the 
justification for NATO forces of which we are a part for 
striking Qadhafi's forces there?
    Admiral Mullen. I think the civilian protection mission is 
dominant there.
    Mr. Kline. But Qadhafi's forces aren't killing civilians.
    Admiral Mullen. However, there has been also a primacy 
issue on no civilian casualties, or absolutely minimizing them, 
And that applies to NATO as well as it did to us up to this 
point.
    The Chairman. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. I want to thank you both for being here. I 
don't think when last you were before us we imagined you would 
be back quite so soon. So thank you again for appearing with us 
and answering the many difficult questions that we continue to 
have.
    I think we are all very pleased that the President, in 
speaking to the American people, clarified what his intentions 
were and what the rationale was. And I think also we can all 
feel good steps were taken in bringing the international 
community and our Arab partners into this process. And as 
always, I think we have seen how admirably our men and women in 
uniform have performed.
    But I want to revisit the question of boots on the ground. 
I appreciate so much, Secretary Gates, your firm commitment and 
continued reiteration that that is not something that you would 
find acceptable. And I myself want to take this opportunity to 
say that I could not under any circumstances support the 
deployment of U.S. ground forces to Libya.
    But I worry that we have a stalemate on our hands, and we 
are already seeing the limits of what can be done from the air. 
And numerous reports have indicated that within just the past 2 
or 3 weeks, that President Obama has signed a covert finding 
which would authorize military aid to the Libyan rebels. To me, 
this signals that other options, besides the current arms 
embargo, no-fly zone and air strikes, are being left on the 
table. With two other wars, as you have both said, and our 
Armed Forces nearly at the breaking point after a decade of 
combat, deployment of our ground forces into Libya cannot be 
one of them.
    Secretary Gates, it is my understanding that Admiral 
Gortney, Director of the Joint Staff, has indicated that the 
United States believes it has the authority to put forces on 
the ground in Libya. Can you envision any scenario in which the 
rebel forces--you have said that they don't want us at this 
point--but a scenario in which they would request a presence of 
U.S. or coalition ground forces in Libya, and under what 
circumstances would we consider such a request?
    Secretary Gates. I assume there are conditions under which 
they would ask for it. I cannot imagine the circumstances under 
which the President would approve it.
    Ms. Tsongas. So you think that it is an absolute line in 
the sand that U.S. boots would never be on the ground?
    Secretary Gates. That is certainly the way he has expressed 
it to the chairman and myself.
    Ms. Tsongas. In going forward as we transition to NATO, and 
if NATO were to make a decision that it needed to put boots on 
the ground, would there be a caveat in place that said no 
American soldiers could be used in that context?
    Secretary Gates. Presumably.
    Ms. Tsongas. Thank you. I yield back.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here this morning.
    We don't know much about the rebels. What we do know about 
Qadhafi's advisers--do we have any intelligence as to who his 
military advisers are and what their current status might be as 
to remaining loyal to him? It seems like the best way for him 
to come out of power is somebody close to him takes that into 
his own hands. Do we have any intelligence to that effect?
    Secretary Gates. I think we do have information about some 
of those in his inner circle, but in terms of their intentions, 
I think we don't have much. What we do have is the evidence of 
one of his intimates, his Foreign Minister, defected yesterday, 
which was somebody very much in his inner circle and so, 
frankly, an encouraging sign.
    Mr. Conaway. You said several times that there are other 
entities around the world that are capable of training and 
equipping Qadhafi's rebel forces. I suspect the rebel forces 
just really want the equip part, not necessarily about the 
training part, because that would require boots on the ground 
to do that. Comments this morning in the press about at least 
one attempt to fire an RPG [rocket-propelled grenade], and they 
had it pointed the wrong direction. So apparently a lot of 
training needs to go on with what they have got.
    Since we don't know who the rebels are, and you don't 
really want to give weapons to folks that might misuse them 
somewhere else, if someone else decided to arm these rebels, 
what would our position be with respect to that?
    Secretary Gates. Well, we really haven't----
    Mr. Conaway. What if it was Al Qaeda that decided to muscle 
in there and arm these guys?
    Secretary Gates. We would clearly have a problem with that. 
I mean, I honestly don't know the answer to the question.
    Mr. Conaway. Personally I think arming those guys is a bad 
idea because we don't know who they are. We are doing it under 
this rubric of protecting civilians. Wouldn't we need to arm 
every single civilian in order to do that, to protect all of 
the civilians?
    Secretary Gates. I don't know.
    Mr. Conaway. This boots on the ground thing. We have had 
boots on the ground in Libya. We had those two pilots that came 
out of the air, and then the search and rescue mission that is 
a part of the unique capabilities. So we will have folks on the 
ground in Libya from time to time, if necessary, in order to 
fulfill those missions; is that correct?
    Secretary Gates. Only for a search and rescue mission.
    Mr. Conaway. But they will be there in harm's way to do 
that?
    Secretary Gates. Very briefly.
    Mr. Conaway. Okay. Admiral Mullen, I hate saying these 
kinds of things, but you made a brag earlier about the way the 
coalition was put together, the international community, the 
Arab League, and were quite extensive in that brag. It is odd 
that we didn't have the time to solicit Congress' intervention 
or help in that regard. And again, that is just folks on this 
side of the table whining about the process. But you did say 
that, and I wanted to push back on that just a little bit.
    Forty years of a dictatorship doesn't have and doesn't 
create in place the kind of civilian mechanisms for running a 
country. If Qadhafi does come out of power, the tribal nature 
of the communities, what do you envision that process looking 
like since there is no organized military leadership in place, 
and there doesn't appear to be anyone we know of in the 
civilian side? What really are the prospects for a Libya 
emerging from this regime change in anything that is remotely 
orderly?
    Secretary Gates. Well, I think that there are several 
alternative outcomes. One is that somebody from his military 
takes him out and then cuts a deal with the opposition. So that 
would be one scenario.
    Another scenario would be the tribes abandon him and then 
cut their own deals with each other.
    Another alternative would be--clearly our preferred option, 
which would be that these opposition forces in the tribes come 
together and begin to create something that resembles a more 
democratic state that protects the rights of its people.
    So there are a number of different possible outcomes to 
this.
    Mr. Conaway. What would be our involvement under any of 
those scenarios?
    Secretary Gates. Well, I think our involvement, if asked, 
would probably be the most likely under one in which they were 
moving toward a more democratic government.
    Mr. Conaway. Do we have any kind of a criteria?
    Secretary Gates. We don't really have any influence or 
particular sway with the tribes as an example.
    Mr. Conaway. I understand that. Have we put any kind of a 
metric in place as to decide, assuming some government does 
emerge, which ones we would support versus which one we would 
not?
    Secretary Gates. No, we haven't gone that far yet.
    Mr. Conaway. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mrs. Castor.
    Mrs. Castor. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, very much for being here this 
morning.
    I would like for you to give us an inventory of Qadhafi's 
military forces and assets. And first take a step back. Libya 
is a country of about 6.5 million in population. Generally do 
we have an idea on, if you take that 6.5 million, how many in 
the population are loyal to Qadhafi, and how many oppose the 
regime?
    Admiral Mullen. Let me take a shot at the second part first 
and come back to the military piece, and it goes to the part of 
the discussion that just occurred. What we are seeing on the 
tribal side is actually--I would call it hedging. Even inside 
tribes, even inside Qadhafi's own tribe, there is a split on 
where this is going. And I guess my experience is, and taking 
this to other countries, that is not uncommon. The people kind 
of want to see how this is going to come out before they vote, 
particularly if he is sustained, and given his track record for 
killing as many of his own citizens as he possibly can.
    With respect to his military, 15- to 20,000, he centers the 
most capable military on the 32nd Brigade, which one of his 
sons commands. It is predominantly in the Tripoli area, 
although not exclusively. There is another brigade called the 
9th Brigade.
    So we have a pretty good feel for his center of gravity and 
his military capability. And as I indicated earlier, we have 
attrited a vast majority of his air defenses----
    Mrs. Castor. You said 20 to 25 percent?
    Admiral Mullen. About 20 to 25 percent. No, overall of his 
military capability. But the vast majority of his air defenses 
are gone. He does have some mobile----
    Mrs. Castor. Inventory for us what his capabilities in 
firepower are in the air and----
    Admiral Mullen. He doesn't have much in the air left. We 
have seen one plane fly since the no-fly zone was effectively 
in place, which was very rapidly after the initial setting of 
that zone. He has got a significant amount of capability with 
respect to tanks, armored personnel carriers.
    Mrs. Castor. Do you know how many? Can you----
    Admiral Mullen. Well, I would rather put it in roughly the 
ratio. He is about a 10 to 1 ratio for him versus--for the 
regime forces versus the opposition. So he has got mobility, he 
has got the training, he has got command-and-control 
communications, a lot of which the opposition just doesn't 
have.
    Mrs. Castor. And probably very little in the water?
    Admiral Mullen. He has got some capability in the water, 
but it is tied up. And they know if they move, they are not 
going to move again, and that message has been communicated to 
him.
    So most of his capability is ground capability, and over 
time that will continue to be able to be attrited, depending on 
where it is. I don't expect we would do that in town, that is 
the civilian casualty piece, but certainly in proximity, as has 
been the case in the last few years.
    Mrs. Castor. Say over the past decade, where has Qadhafi 
purchased his weaponry, his--apparently his strength is in the 
tanks and land vehicles or even in the air. Where has he 
purchased his capability?
    Admiral Mullen. He has got an awful lot of former Soviet 
Union capability.
    Mrs. Castor. Any Western countries that you know of?
    Admiral Mullen. I just don't know.
    Mrs. Castor. Talk a little bit about the rebels' 
capability. You said they are disparate, scattered, they lack 
command and control. How many militarily trained rebels would 
you estimate?
    Admiral Mullen. The estimate is about 1,000 that we have 
right now. But again, as the Secretary said, that is--our 
understanding is that is principally in the east. And so we 
just don't know across the land how many would stand up at this 
point.
    Mrs. Castor. You don't have a good feel for who would join 
the fight, or who has joined the fight, and how many you could 
put into that resistance population?
    Admiral Mullen. Well, they are supplemented by a fair 
number of civilians who don't have a military background.
    Mrs. Castor. Right. Do you know or can you say how many 
thousands or not?
    Admiral Mullen. No.
    Mrs. Castor. Okay. Thank you very much. I yield back.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary Gates, Admiral Mullen, thank you for joining us 
today, and thank you so much for your service.
    I want to begin by stating what the Obama administration 
has said, and that is their effort is to persuade Qadhafi to 
relinquish power. Under that scenario, what happens if Qadhafi 
stays in power? And if he does, what is the contingency plan if 
he continues in that role?
    Secretary Gates. I think we have considered the possibility 
of this being a stalemate and being a drawn-out affair. Unless 
there is some kind of a significant change in behavior in terms 
of his own people and so on, it is hard for me to imagine 
circumstances in which we would be content to deal or tolerate 
a government that still had Qadhafi at its head. And I think it 
is hard to forecast what directions this business may take, but 
I think that the administration would have a hard time 
accepting a government with Qadhafi as the head in terms of 
dealing with it.
    Mr. Wittman. So at this point, though, there is no 
contingency plan if he does continue to remain in power?
    Secretary Gates. Other than keeping the pressure on him.
    Mr. Wittman. Okay.
    The administration has said, too, that they are absolutely 
not going to deploy ground forces there, but as we have watched 
10 years of war in Afghanistan and Iraq, and know that as we 
pursue operations there with precision strike and the use of 
air power, we talk about that being used to prepare the 
battlespace and that coordinated effort there. Under that 
scenario is it correct that we have nobody on the ground in 
Libya in any way, shape or form directing or recording these 
air strikes like we have used tactically in Iraq and 
Afghanistan?
    Secretary Gates. That is correct.
    Mr. Wittman. Okay. Are you satisfied with the effectiveness 
of that, then, without us being able to direct those operations 
like we do in other theaters?
    Secretary Gates. The chairman is better able to speak to 
that than I am. I think there is some loss with not having 
somebody on the ground, but I think that it is more than offset 
by the effectiveness of what we are doing and by not having 
anybody there.
    Mr. Wittman. I want to talk a little bit, too, about the 
no-fly zone and looking at deployment of a Marine expeditionary 
unit there in the Mediterranean, and looking at how the 6th 
Fleet is currently being deployed. The U.N. Security Council 
Resolution 1973 and 1970 requires an inspection of all vessels 
and aircraft en route to and from Libya if there is a reason to 
believe that the cargo contains items that are prohibited in 
Resolution 1970. Under that scenario what role do you see the 
U.S. Navy and the Marine Corps assuming in that area enforcing 
those elements of the U.N. Resolution 1973 and 1970?
    Admiral Mullen. Again, part of the mission that NATO has 
assumed is the arms embargo, so we would certainly support it 
in terms of ships that would be under the NATO chain of 
command, support that.
    And I would also note that this particular resolution is 
the first one that I am aware of that allows us to actually do 
this at sea, to board whether we are invited or not. And that 
is a significant upgrade, if you will, of being able to enforce 
something like the arms embargo.
    Mr. Wittman. Will that stretch our force capacity as far as 
our naval forces, especially with where we need them elsewhere 
with, say, the 5th Fleet and now engaging the 6th Fleet in an 
expanded role?
    Admiral Mullen. No, sir. I don't think substantially. In 
addition to focus on Libya, this is a part of the world that 
also has a significant amount of turmoil throughout it. So 
having a presence of naval capability there in the 
Mediterranean, I think, is a wise decision.
    Mr. Wittman. Looking at these scenarios, it is great to 
have that ability to board these vessels at sea. But let us 
face it, there is also a contingency that some of them get 
ashore, and some of these materials get ashore. What would be 
the U.S. role if we were to find that out, that under this 
resolution there was a violation with these supplies going 
ashore?
    Admiral Mullen. Well, I don't know if the implication of 
the question is would we go ashore. The answer would be no. I 
mean, this question has come up a lot. It is zero boots on the 
ground, none, with respect to that. I actually have a 
reasonable amount of confidence certainly from the arms embargo 
standpoint that we can enforce this in a way that is maybe not 
exactly perfect, but it is a very strong embargo that we might 
be--I think we are going to be able to significantly impact his 
ability to break it, although that certainly is a possibility 
as well.
    Mr. Wittman. Thank you.
    The Chairman. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    Secretary Gates, Admiral Mullen, thank you for your 
service. And above all, thanks to our troops.
    I have more of a statement than a question, because my 
remarks have to deal more with the congressional role in this 
process. I don't think it has been mentioned so far here today 
that the Senate, the U.S. Senate, on March 1st unanimously 
called for a no-fly zone over Libya. The House did not have a 
similar action, but that is at least some sign of congressional 
involvement early on in this process.
    It is no secret that this is a period of domestic tension 
in this country politically, but it makes me yearn for the days 
when politics stopped at the water's edge, and we could gather 
behind the Commander in Chief.
    There has been a lot of discussion about the War Powers Act 
from some Members here. They are still unfamiliar with it. As 
you have pointed out, Mr. Secretary, every single President, 
Democrat or Republican, has questioned the constitutionality of 
that act. If we had wanted to repair it, we have had years to 
do so, but Congress has not done that. There is a school of 
thought in the law that although the War Powers Act was 
intended to limit Presidential power, it has, in fact, expanded 
it. Yet we in Congress have not amended that act since 1973.
    Many people have wondered about the lack of adequate notice 
to this body. Well, the leadership in each party was informed 
promptly after the President's decision. So perhaps we should 
question our own contact with our own party leadership. But 
that has not been raised at least so far in this hearing.
    I also think that you can see the Presidents age, Democrat 
or Republican. For almost every year in office, they age about 
10 years it seems like. The gray hair, the white hair quickly 
comes. They carry the weight of the world on their shoulders. 
They are privy to many things that we cannot discuss here in 
open hearing. And I am all for Congress, we are an equal 
branch, but sometimes we do not take our responsibilities 
equally seriously with the Chief Executive of the land, and 
that worries me, because Congress should be more than a 
Congress of backseat drivers, more than a Congress of armchair 
generals.
    You gentlemen have conducted your responsibilities ably and 
well under difficult circumstances. I worry that we in this 
body have not. So I am hopeful that on a going-forward basis we 
can examine some of these things, not having declared a war 
since World War II. Vietnam was not a war, Korea was not a war. 
We need to get our act together in this body. And this is not a 
criticism of you. You gentlemen in the executive branch are 
doing it ably and well. We need to get our act together in the 
legislative branch. So thank you for your service. Above all, 
thanks to our troops. But I think in the interest of full 
disclosure in this hearing, we need to reflect on congressional 
shortcomings as well.
    Thank you, gentlemen.
    The Chairman. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    And thank you for your service and also thanks to the 
service of our men and women in uniform.
    Mr. Secretary, Mr. Chairman, can you tell me when it was 
clearly communicated to Muammar Qadhafi that if, in fact, you 
do these things that create this humanitarian crisis that you 
describe, that we will, in fact, intervene militarily to 
degrade your capability and to stop this humanitarian 
catastrophe from happening? As we assembled these forces, to 
include predominantly our own, when did we clearly communicate 
those conditions, and what specifically were those conditions, 
so that if he ceased his activities in terms of again attacking 
civilian targets, that, in fact, our forces would not 
intervene?
    Secretary Gates. First of all, he should have seen this 
coming beginning with the Gulf Cooperation Council resolution, 
and then the Arab League resolution, and the moves in the U.N. 
with the first resolution and then the second resolution. So 
this wasn't exactly like he was surprised.
    What the President said in his announcement of his 
decisions was that for the ground attacks to cease, that he 
would have to pull his forces back away from Misrata, from one 
of the towns in the west that was--Az Zawiyah that he was 
attacking, restore power and water to Misrata, and pull back 
well to the west of Ajdabiya. So he was very specific in those 
matters with his announcement of his decision.
    Mr. Coffman. But there really were no clear conditions 
made. Were there really clear conditions made where we were 
waiting for a response from Muammar Qadhafi on preventing this 
humanitarian crisis for which we now are engaging in combat 
operations?
    Secretary Gates. He started these actions the minute that 
the uprisings began in Tripoli and the other cities. And the 
response was, I think, clearly communicated to him what was 
going to happen.
    Mr. Coffman. Mr. Secretary, I served in the Army and the 
Marine Corps, and I know what humanitarian missions are, and 
our men in uniform know what humanitarian missions are. And 
they are generally in a permissive environment where our 
security concerns are simply the integrity of our logistical 
support.
    These are combat operations, were intended to be combat 
operations from the beginning. I don't know why this 
administration has not been honest with the American people 
that this is about regime change. And it is stunning to me when 
the President of the United States in his address to the 
American people says that regime change in Iraq took 8 years, 
and this is going to be different. Well, regime change in Iraq 
took 3 weeks. It was the humanitarian crisis that was caused by 
the vacuum of power in the aftermath of the fall of that 
regime, you know, whereby there was anarchy, there was looting, 
there was massive criminality, and then there was an ensuing 
sectarian civil war for which we were engaged in, that it has 
gone on now for 8 years.
    But it is stunning to me that this is just the most muddled 
definition of an operation probably in U.S. military history to 
say what it is and what it isn't. To say this is not about 
regime change is crazy. Of course this is about regime change. 
Why not just be honest with the American people?
    Secretary Gates. Well, first of all, I think that the 
President has been quite clear in terms of what the military 
mission is, and that is one of the reasons why we can take the 
position there will be no boots on the ground. Most instances 
where there has been regime change, where that is the objective 
of the military operation, it has taken ground forces to make 
that happen.
    So there is the military mission, which has limited 
objectives and is limited in nature and duration and scope, and 
then there is the political objective or the policy objective 
of the need for a change in the regime in Libya. I don't see 
how that is muddled.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chairman.
    First thing I want to say is I really appreciate the fact 
that we have at least a limited number of airmen from the 185th 
Air Refueling Wing of the National Guard in Sioux City who have 
just been deployed, called up. And I have confidence they are 
going to be doing the job that they are called upon to do, and 
I want to give them as much credit as possible.
    Often my colleague Jim Cooper and I don't vote the same way 
even though we are in the same party. I don't know what he 
thinks about me, but I think he is one of the most thoughtful 
people in the U.S. Congress. And I want to associate my remarks 
with what he had to say. I think he had a lot of great things 
to say about the role of Congress in this. And I appreciate 
your comments, Jim, very much.
    That being said, my job still on this committee is to 
provide at least some degree of oversight of the 
administration. I was very critical of the Bush administration 
during our involvement in Iraq. I am not at the point where I 
am willing to be as critical of the Obama administration and 
this policy. I may never be that critical. I am still at a 
stage, like a lot of us, where I am gathering as much 
information as I possibly can, given the limited information 
that, in fact, was provided to most of us here in Congress 
prior to the commencement of the operations. But I will 
continue to engage in oversight so long as this operation 
continues.
    I have a lot of concerns about who the rebels are. I know 
that that was brought up already. I know that Secretary of 
State Clinton did meet with them over the weekend. Can you talk 
to us some more about who these folks are? Because if, in fact, 
we have a policy goal, as you just stated, Mr. Secretary, of 
regime change, then I am hopeful--although I don't know for a 
fact--but I am hopeful that the administration has some idea 
who is going to take Qadhafi's place. And will it be someone 
among the rebels? Will there be some kind of a government that 
will be made up of a number of different factions that already 
make up the rebels? Who are these folks, and what would be the 
plan post-Qadhafi?
    Secretary Gates. Well, we only really have information on a 
handful of the rebel leaders that have been in the east. We 
really don't have any information that I am aware of of who led 
the uprisings in the cities in the west, and there may not have 
been particular leaders. It may have been largely spontaneous.
    I think that the one thing that we haven't talked enough 
about in this hearing in terms of a post-Qadhafi period is, in 
fact, a dominant political reality even under Qadhafi, and that 
is the critical importance that the large tribes play in Libya, 
and the fact that Qadhafi, in fact, has been able to stay in 
power only by balancing these tribes, and by giving them 
concessions and money, and taking their interests into account. 
So I think in any post-Qadhafi environment, the major tribes of 
Libya are going to play a major role in whatever government 
comes afterward.
    Mr. Loebsack. Okay. We are at a point now where NATO has 
taken over the military operation essentially, although we are 
a huge part of that by definition. So I still don't know what 
that means exactly. Maybe you can flesh that out in the coming 
days. But in terms of who would play a very important role with 
respect to a post-Qadhafi regime, the construction of that, 
whatever the case may be, who among the Western allies and the 
United States would play lead role in all of that? Has anyone 
even thought about that at this point, I guess?
    Secretary Gates. Well, as I mentioned earlier, there has 
been some outreach from the opposition. The opposition was 
represented at the London conference. But, you know, he 
represents the group in the east, but there is no--I don't 
think we have any evidence that he speaks for those in the 
west.
    Mr. Loebsack. Can I just say--because I have very little 
time, and I appreciate that--but I have a lot of concerns about 
so-called nation building. I understand that in Afghanistan the 
administration argues that we are not engaged in nation 
building as such. We are engaged in capacity building, 
institution building, because the ethnic--the tribal makeup of 
Afghanistan is as complex as it is.
    If, in fact, Libya is much more complex than we think it is 
as well, all I would say in closing--and thank you for letting 
me go a couple of extra seconds, Mr. Chairman--is that we need 
to be extremely careful moving forward that we ourselves do not 
engage in nation building as such, given what you have already 
mentioned in terms of Libya, the complexity of Libya. That is 
just a cautionary note on my part, and I will be looking 
forward to hearing from you.
    Secretary Gates. And I would tell you that I completely 
agree with you.
    Mr. Loebsack. Thank you, Mr. Secretary.
    The Chairman. Thank you.
    Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman.
    I appreciate the leaders here today. It is certainly a 
difficult and complex situation you are dealing with.
    A comment first and then a question. The comment, while I 
certainly empathize with the Libyan people, Qadhafi, a despotic 
leader to be sure, I oppose this action. When you look at our 
involvement in Iraq and Afghanistan, completing our objectives 
there, I think is in our vital national security interest, we 
need to see that through. It has certainly taken a great degree 
of our effort to do so. Al Qaeda, an existential threat to our 
way of life, we need to organize and to neutralize that threat. 
And the deficit, which also is an existential threat. These 
things, I think, require us to learn from our experiences over 
the last decade and to exercise discipline going forward.
    We talked in great detail about the lack of clarity and the 
rebels, not knowing a lot about these rebels. For what it is 
worth, based on my experience, my study and reflection on this 
topic, when your military and political goals are not 
harmonized, you really run the risk of strategic failure or 
having to go back on your promises. We are where we are today.
    My question has to do with authorization for going to war, 
and this is certainly a topic that was of great interest to the 
Founders. We see this in Madison's notes on the Constitutional 
Convention. You see that in the Federalist Papers. You can read 
that in many different individual papers. I think suffice it to 
say that the Founders really were very concerned about the 
executive exercising fiat in taking us to war, and they really 
wanted to make sure that there were checks and balances to 
that, and we get that through the Legislature and in the 
Constitution that follows.
    So my question to the Secretary is you say that the 
administration is complying with law. What law would that be?
    Secretary Gates. The administration has complied with the 
elements of the War Powers Act that involve consultation and 
notification.
    Mr. Gibson. So if the Congress votes to not authorize, will 
the administration cease operations?
    Secretary Gates. I don't know the answer to that because I 
don't know the legal case.
    Mr. Gibson. Well, clearly this is a question that the 
American people need an answer to.
    Let me conclude by saying this, that apart from how the 
situation in Libya turns out, and we will hope for the best--
and I say ``hope'' because I am not convinced that we really 
have a plan to accomplish the political objectives, we have a 
plan to accomplish the military objectives--but let us hope for 
the best. But beyond that I want to associate myself with the 
remarks from the gentleman from Tennessee. And I think the 
major action this Congress needs to take up is going forward 
bringing more clarity on the use of force and how the 
legislative and executive branches need to do their duties in 
concert with the Constitution.
    I thank the gentlemen again for coming, and I yield back, 
Mr. Chairman.
    The Chairman. Thank you.
    Ms. Sutton.
    Ms. Sutton. Thank you, Mr. Chairman.
    Thank you for your testimony.
    From the beginning days of this effort, the United States 
led the coalition. And today we have heard that NATO has taken 
sole command of air operations in Libya, and that the U.S. is 
not in the lead. So how does that impact the flow of 
information to Congress and to the media about our military 
involvement, given, obviously, that we are part of NATO? I am 
just trying to sort all of that out. Could you tell us what to 
expect?
    Secretary Gates. Let us both take a crack at that. But my 
view would be that it should not impede it at all, that 
everything we are doing should be transparent to the Congress.
    Admiral Mullen. Certainly that is the intent from the 
standpoint of being inside NATO, and those who are stationed--
those who are in the coalition and those who have positions 
within the NATO structure would be also in their United States 
hat reporting back up the chain to the Secretary.
    Ms. Sutton. So the comments that we have heard through the 
course of this hearing about boots on the ground, and we talk 
about the--with steadfastness that we are not in the United 
States going to be sending boots on the ground. We have heard 
comments about they haven't--they have requested no boots on 
the ground. We all can envision a scenario where they might 
change their mind about that. Maybe they will, maybe they 
won't.
    So we also heard a conversation about other countries 
having the capacity to make their own decisions about boots on 
the ground. So when that decision is made, are we going to know 
immediately and have an opportunity to change our course, or 
how does that work in real time?
    Secretary Gates. Well, since it is hypothetical, I am not 
sure I know either. I am pretty confident that NATO as an 
organization would not authorize boots on the ground as part of 
this operation. Several of the countries have made that clear. 
And in truth, several of the countries have reservations about 
any goal associated with regime change. There is unanimity in 
terms of the no-fly zone and the other missions.
    So I think that what an individual country may do, I just 
don't envision that at this point in terms of boots on the 
ground, except I can see potentially some--that they are in a 
training mission with the rebels. We have talked about the need 
for training, and improved command and control and so on, so I 
can see some individual countries, not the United States, at 
the invitation of the rebels having someone in there do 
training and so on.
    Admiral Mullen. And the only thing I would add to that is 
that doesn't necessarily have to be a NATO country, it could be 
another country, an Arab country, that is a part of the 
coalition as well.
    Ms. Sutton. But if it is a NATO country, what does that 
mean for the United States in communication back to this body? 
Anything?
    Secretary Gates. Well, we would keep you informed about it.
    Ms. Sutton. Okay. The other issue I would like some 
clarification----
    Secretary Gates. My guess is we would all read about it in 
the newspaper about the same time.
    Ms. Sutton. Well, see, that is my concern is that we read 
about things in the newspaper, and then we get to come and ask 
the questions. And that is, I think, concerning to the 
Congress, and I think it is concerning to the American people 
when they witness that, and I think rightly so.
    The other question that I have is just a point of 
clarification about the weapons that are being used by the 
rebels. So are we to understand that those weapons are all at 
this point coming from Qadhafi's forces, that they are 
obtaining them from Qadhafi's forces?
    Admiral Mullen. This is a country like many who has--they 
have a lot of weapons. And, in fact, they are uncovering 
magazines and caches of weapons that are principally existent 
in the east. And they are certainly, from a small-arms 
standpoint, AK-47, the kinds of things that they are using, 
there is ample supply.
    Ms. Sutton. I yield back.
    The Chairman. Thank you.
    Mr. West.
    Mr. West. Thank you, Mr. Chairman.
    Secretary and Admiral, I appreciate you being here.
    I want to go back to Mr. Wittman's comment about close air 
support. I spent 22 years Active Duty in the Artillery, and I 
had the opportunity in combat to direct in close air support 
missions as a fire support officer. One of the things about 
close air support, it is the engagement from an aero platform 
on an opposition's ground maneuver forces. One of the critical 
tenets of that is to have ground forward air controllers on the 
ground to direct the men. So my question is who is the person 
on the ground that is directing close air support missions 
against Qadhafi's forces?
    Admiral Mullen. There is no one on the ground doing that. 
We don't have any JTACs [joint tactical air controllers] on the 
ground. We have actually got, and I am sure you will be 
familiar with this, in some aircraft FACs [forward air 
controllers] who are flying in the aircraft specifically.
    But we also recognized going in that we would not be as 
effective obviously if we had controllers on the ground. That 
is certainly understood. And yet, whether it is the AV-8s, the 
A-10s or even some of the Air Force jets, the F-15s, we have 
had pretty significant success, principally because the IADS 
[integrated air defenses] are down. So we can actually get down 
on them pretty close. But that doesn't preclude us from 
focusing hard on positive identification, which is a real 
challenge, and in particular as the regime forces in the last 
couple of days have started to look like, dress like, drive in 
vehicles like the opposition forces.
    Mr. West. Absolutely. And that is my concern.
    Admiral Mullen. That is not a surprise. And so that has 
made it in some cases tougher.
    Mr. West. So then there is a question of effectiveness, and 
then there is also the question of how do we mitigate the risk 
of eventually dropping bombs on the rebel forces?
    Admiral Mullen. Well, again, I think it has been an 
incredibly well-executed mission so far to not do that 
specifically. And outside these difficulties which we know, the 
biggest problem the last 3 or 4 days has been weather. We have 
not been able to see through the weather or get through the 
weather to be able to do this kind of identification, and that 
has more than anything else reduced the impact--it hasn't 
eliminated it--reduced the effectiveness, and has allowed the 
regime forces to move back to the east.
    Mr. West. Very well.
    Secretary Gates, as the chairman mentioned in his opening 
statement, you previously made the comment about no vital 
interest in Libya, but of course we are there. But as I look at 
recent developments all across the Middle East I see some other 
very key strategic interests in Syria, where we have a 
sponsorship of Hezbollah and the sheltering of Palestinian 
terrorist organizations that directly threaten Israel or 
Lebanon. And we know that Syria has been the launching point 
for Al Qaeda to go into Iraq. And I had the opportunity to 
serve in there, so I know exactly about that. And they have had 
the opportunities to kill our soldiers, wound our soldiers and, 
of course, thousands of Iraqis.
    In Yemen we know that we have Al Qaeda in the Arabian 
Peninsula there, and we have the radical cleric who, of course, 
lived just right across the Potomac in northern Virginia, Al 
Awlaki; and then also in Bahrain where we have our 5th Fleet.
    So I think the thing that this committee and also the 
American people really need to understand is what bumped Libya 
up above everything else, what put them at the top of the food 
chain as far as us saying that this is such a vital or a 
national interest?
    Secretary Gates. Well, I think, first of all, it was the 
fact that most of the--that the countries in the region 
themselves decided that Libya had become a threat for the first 
time since Qadhafi had ever come to power. And then----
    Mr. West. A threat to them or a threat to us?
    Secretary Gates. A threat to their own people to start 
with, and a threat to the region as a whole in terms of the 
changes that were going on in the region. And they clearly felt 
that Qadhafi had to go. And then we had the British and the 
French, who had a very strong view that some action needed to 
be taken to prevent a humanitarian disaster. So what these 
countries were primarily concerned about was, I think, what was 
about to happen or what was happening to the Libyan people.
    I think the added aspect, the concern was enhanced when 
dealing with the number of foreign workers in the country and 
the danger of mass immigration to both Tunisia and Egypt. There 
are over a million Egyptian workers in Libya, and I think the 
danger of them destabilizing the fragile conditions in both 
Egypt and Tunisia became a great risk as well.
    So it was both the potential for a humanitarian disaster in 
terms of many, many thousands of Libyans being killed, but also 
the risk of destabilization of all of North Africa.
    Mr. West. Thank you. And I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Courtney.
    Admiral Mullen. Mr. Chairman, can I just very briefly?
    The Chairman. Very briefly.
    Admiral Mullen. It is hard to prove a negative, but it is 
my belief that this action, happening as quickly as it did, did 
prevent a very significant humanitarian crisis, and that was 
obviously a big part of that.
    Mr. West. Very well.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Again, just to go back to a point Mr. Cooper made, one of 
the things that moved it up on the food chain was a unanimous 
resolution in the United States Senate on March 1, bipartisan 
sponsorship, calling for us to execute a no-fly zone. So in 
addition to all the other voices from the U.N. and the Arab 
League, Congress actually was joining in in terms of calling on 
the executive branch to act. And you can get whiplash around 
here.
    Secretary Gates. And I would just add, Mr. Courtney, 
including both Republicans and Democrats in the House calling 
for a no-fly zone as well.
    Mr. Courtney. Thank you.
    I mean, this hearing should be happening, and there should 
be questions asked that--you know, something this big deserves 
all the scrutiny that we can give it. But you can get sort of 
whiplash around here trying to keep up with the positions of 
some people on it.
    One thing I think we could do that is very useful is to 
pass a defense budget for the rest of 2011. And again, I think 
you were a little gentle, Mr. Secretary, in terms of saying the 
impact on the Defense Department in terms of this operation is 
not going to be that large, because this morning Secretary 
Mabus was at a shipbuilding caucus talking about the fact that 
we right now have a global fleet that is deployed in the 
Arabian Sea--the Mediterranean obviously is part of this 
operation--in the Pacific providing support in Japan, yet 
because of not doing a 2011 budget, we have availabilities that 
are now being cancelled. And this is a fleet that is at maximum 
tempo right now, and the Navy can't reset like other parts of 
the military. They got to do it as you go there.
    And I think that certainly these operations--and I know for 
a fact, because one of the submarines that was deployed in the 
Mediterranean is the USS Providence out of Groton. The Scranton 
and the Florida were also part of that operation. They are 
pretty out there in terms of their deployment, and they need to 
get refitted. Again, I just would maybe give you another 
opportunity to talk about the fact that we have got to get this 
done to, again, just keep all the pieces that are out there 
moving, particularly with our fleet.
    Secretary Gates. Well, it is all of the services. In the 
Navy, it is not just that we are not being able to start some 
ships that were part of the program. Some of the maintenance 
contracts have had to be cancelled.
    Just to your point about availability of ships, as I said 
earlier, no military construction for fiscal year 2011 at this 
point. And every one of the services, we are reaching the point 
where we may have to ramp down significantly the activities at 
the depots, at Red River and elsewhere. So, I mean, you look at 
every service, and the consequences of the continuing 
resolution are being felt.
    Admiral Mullen. One thing I would like to add, and I have 
not had this discussion with my boss, I am a little loath to 
have it publicly, but for the first time since I have been in 
this job, which is 3\1/2\ years, I know the Navy is considering 
essentially recommending not deploying some ships scheduled for 
deployment. So it is just another impact of, and it is purely 
financial right now, to look at can we get through this year.
    And what isn't visible in all this, and I have been around 
money a lot in my career, is just the contraction that is going 
on inside all the services as they play the ``what if this 
doesn't happen.'' And in that regard, very conservative 
assumptions with respect to executing the rest of this budget.
    Secretary Gates. We talk about equipment and everything, 
but just one further thing, just to bring it home to the 
average service man or woman. The Navy has had a policy for a 
long time of getting 6 months' notice for PCS [permanent change 
of station] moves. Because of the money constrictions, they 
have now shrunk that to 2 months, so a real impact on families.
    Mr. Courtney. Just one quick follow-up. With the hand-off 
to NATO today and the fact that the unique capabilities which 
the President described in his speech the other night were part 
of the operation at the outset, the ramp-down in terms of cost, 
I mean, part of what is driving that is the fact that we are 
sort of easing back, again, Tomahawk missile attacks, which 
again were sort of the high-cost front-end parts of this 
operation. I mean, that explains at least something we can take 
back to the American people, that there really will be a 
reduced cost because we are not doing the same stuff that we 
uniquely were capable of doing at the outset.
    Secretary Gates. That is absolutely right. And it is really 
not an easing back, it is a pretty significant ramp-down over 
the next couple of weeks.
    The Chairman. Thank you.
    And just for the record, we are all struggling with trying 
to get this appropriations bill passed for defense. But we 
wouldn't be struggling if it had been done last year in regular 
order when it should have been.
    Mr. Thornberry.
    Mr. Thornberry. As I have listened to you all yesterday and 
today, it seems to me that really we have three distinct 
military missions here. One is a no-fly zone. Two is to protect 
civilians. But thirdly is to degrade his military. And I guess 
one of the things I would like to understand is are we 
degrading his military only when they are engaged in attacking 
civilians, or are we degrading his military capability somewhat 
preemptively?
    Admiral Mullen. I think the principal focus has certainly 
been as he has been on the move. But it is not exclusively 
where they exist on the move, because there is a command and 
control piece here which isn't proximate necessarily to where 
the forces are. So a substantial degradation there as well. 
And, yes, we have focused on this as he is moving forces, as he 
was to Benghazi and then came back through Ajdabiya and then 
focused for the last several days on Misrata. The President 
talked about Az Zawiyah, which is in the west. But he, the 
regime, has dug in pretty hard inside that city, so it becomes 
very difficult to go after his forces in the city because of a 
high risk of collateral damage.
    So it is really in combination. I mean, we have certainly 
focused on it this way, but I don't think we have been 
overcautious in terms of representing what threatened--what he 
does in threatening his people and taken his forces on in that 
regard.
    Mr. Thornberry. In the ramp-down we are going to provide 
logistics, intelligence support, command and control support. 
What else?
    Admiral Mullen. And the logistics is--probably more than 
anything else, it is fuel for airplanes, although there are 
other countries with tankers out there as well. The 
intelligence, surveillance, reconnaissance aspect of this. The 
electronic attack. I talked about having the vast majority of 
his air defenses down, but he has got some mobile capability 
that is still there, and we and a very limited number of other 
countries have the capability to take that out when it 
radiates. So those are the principal four or five areas where 
we will support.
    Secretary Gates. If I could just say a word about the 
attacks on his military. I mean, what we are trying to do is 
prevent him from using his military against civilian 
populations. And so what we are trying to do is hit convoys on 
the move, hit ammunition dumps, things like that, that give him 
the capability to go after the civilians, because he has shown 
in every instance where he was able to, that is exactly what he 
has done.
    Mr. Thornberry. But you mentioned a few minutes ago, Mr. 
Secretary, that other nations have a somewhat more aggressive 
stance than we do. I presume that our support, logistics, 
intelligence and so forth, will continue even if those other 
nations escalate in some way their operations. I mean, we are 
going support them.
    Admiral Mullen. Having watched this coalition come 
together, and having watched it debated inside NATO, there is 
certainly some tension with respect to that, and I think that 
tension will continue from the standpoint of what we are going 
to do to support that. It is in those areas, and it will 
continue to be so. That, I think, doesn't necessarily mean that 
under any circumstances we wouldn't change that. But certainly 
for what we can see right now, what I can see right now, we 
will continue that support.
    Mr. Thornberry. It seems to me in both areas there is a 
potential for some growth in this mission that at least we 
ought to be aware of.
    Mr. Secretary, one thing I haven't really heard discussed 
much is the consequences of this action on the worldwide 
terrorism threat. Do you see ways that this makes the world 
more dangerous for terrorism, less dangerous? In this setting 
what can you say about that?
    Secretary Gates. Well, I think the first thing to remember 
is that Qadhafi was a principal sponsor of terrorism himself, 
and our country has been the victim of that terrorism. And, in 
fact, he and Hezbollah have killed more Americans than anybody 
except Al Qaeda in the attacks on the United States on 9/11. So 
I think Qadhafi was not exactly a force for good in terms of 
the terrorist threat.
    The terrorists themselves, Al Awlaki and others, are saying 
that these changes provide them with opportunities. And perhaps 
that is true. But the reality is I think the success of changes 
in Tunisia, and Egypt and places like that actually will make 
it harder in the long run for the terrorists. But they 
certainly do see opportunities. And I think we have to be on 
guard against that, as do these countries themselves, that 
their revolutions don't get hijacked. But I think in the long 
run Al Qaeda is a loser in this revolution that is taking 
place.
    The Chairman. Thank you.
    Mr. Garamendi.
    Mr. Garamendi. Thank you very much, Mr. Chairman.
    And thank you for your testimony, gentlemen. If this 
question has been answered, just say so, and I will pick it up 
from the record. I have been in and out.
    How are we paying for this? We know the numbers, 500-plus, 
plus 40 million going on. How are we going to pay for it? Where 
is the money coming from?
    Secretary Gates. Right now I am in discussions with both 
the White House and OMB about how to do this. I think it will 
come from within Defense resources. But whether it is just 
exactly how we do that we haven't established yet.
    Mr. Garamendi. So we are not looking at a new 
appropriation, but rather a reassignment of money that has 
already been appropriated to the Defense Department?
    Secretary Gates. I think that is likely, yes, sir.
    Mr. Garamendi. I thank you and appreciate the detail when 
you have it. Thank you very much.
    The Chairman. Thank you.
    Mr. Secretary, I know we have agreement to end in 5 
minutes, but we have two more Members. Would you be willing to 
take their questions?
    Secretary Gates. Sure.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Secretary.
    And I want to say this with as much respect as possible. I 
want to, if I could, just repeat some of the things that I have 
heard you say over the last few days.
    Success is removal of Qadhafi. The goal is not regime 
change. We want to force them to leave. Our goal is not to 
remove him. Circumstances under which he would be allowed to 
remain are hard to imagine. The U.S. could not tolerate a 
government with Qadhafi as the head of it.
    Now, I understand that maybe it is the Secretary of State's 
office to try to politically force him to leave, and it is the 
DOD's job to make it where it is easier for the Secretary of 
State to do that. Is that where we are?
    Secretary Gates. What I have been trying to make clear is 
the difference between a political objective and the military 
mission. And the military mission is much more limited than the 
political objective.
    Mr. Scott. Yes, sir. There are two facets of a U.S. mission 
or a U.S. goal. There is a U.S. political goal, and there is a 
U.S. military mission, and the end result is that Qadhafi would 
no longer be in charge in Libya.
    Secretary Gates. Well, first of all, I would say we have 
accomplished the military goal, and now we need to sustain it 
in terms of a no-fly zone and in trying to protect the civilian 
population. You could have a situation in which you achieved 
the military goal, but do not achieve the political goal.
    Mr. Scott. I am one of those that think Qadhafi is smarter 
and more capable than most people give him credit for, and that 
maybe the rebels--I mean, look, he has got command and control 
and an army, and they have got neither. So us fighting him with 
airplanes and saying we are not going to put boots on the 
ground is a serious concern to me.
    I want to go back to one other thing that you said. And I 
am a Member of Congress, and so I take a certain amount of 
offense to the timing of what the President did. And you said 
it is your position that the U.S. can bomb Libya without 
congressional approval, but you would need congressional 
approval to bomb Iran. Who makes the determination of who we 
can and cannot bomb without congressional approval?
    Secretary Gates. The President. And in the case of Iran, I 
was asked--what I was doing was quoting an answer to a question 
that I received in a congressional hearing when I was asked if 
I felt, if it was my personal opinion, that we would need the 
approval of Congress to go to war with Iran. It wasn't just 
bombing them, but to go to war with Iran. And I said I thought 
so.
    Mr. Scott. Admiral, if I could, we have got a continuing 
resolution that expires within a couple of days that we don't 
have an agreement on. We approach the national debt ceiling 
within weeks. We are now in Iraq, Afghanistan and Libya. The 
President made the decision to go into Libya knowing that we 
were approaching those timelines with regard to funding. 
Obviously it takes money to do all of these things.
    At what point will we see the President lead on the issues 
of the continuing resolution, the national debt limit and the 
budget as a whole? Wouldn't you agree that they affect our 
ability to engage in these operations?
    Admiral Mullen. Well, I mean, the question was asked 
earlier about if the government shut down, would that affect 
the operations. And as best we can tell, it wouldn't in Iraq, 
Afghanistan or Libya, or elsewhere, or Japan right now 
specifically.
    It is not really mine to answer what the President should 
do. I would only say that the concern that you raise is one 
that is--I have seen routinely discussed in the meetings that I 
have been in in terms of understanding, one, what the challenge 
is, and that they need to be resolved. Other than that I really 
wouldn't comment more on those issues.
    Mr. Scott. If I could, one last thing very quickly. You 
said that before the ink was dry, we were on the way. Well, the 
ink was dry on Friday. Congress was in session on Thursday. So 
the decision was made that we were going that way while 
Congress was in session, yet there was a decision made not to 
even brief the Armed Services Committee; is that correct?
    Admiral Mullen. What I saw was the President consulted 
immediately after the decision was made. I mean, I was in the 
meeting, in the situation room, on the phone, and he did that 
very much proximate to that decision.
    Mr. Scott. When was the briefing of the Armed Services 
Committee?
    Admiral Mullen. There wasn't one.
    Mr. Scott. Thank you, sir.
    The Chairman. Mr. Young.
    Mr. Young. Thank you, Mr. Secretary and Mr. Chairman, for 
being here today.
    Notwithstanding my great concerns about the 
constitutionality of the action that we have seen take place in 
recent days, and with due recognition of the fact that there 
were certain Members of this body and over in the Senate that 
seemed to have blessed a no-fly zone, I still wish the 
procedure had played out differently.
    But I would first like to start with a comment related to 
the nature of the mission, and then I will have a question. I 
am a U.S. marine, and it has been my understanding that 
humanitarian environments, as I think was mentioned earlier, 
typically are things that occur within permissive environments. 
This certainly is not a permissive environment. We have what 
has been styled a no-fly zone plus. And it seems that plus is 
Tomahawk attacks and, as I read it, select boots on the ground, 
depending upon how you define ``boots on the ground.'' We sent 
U.S. marines in for the search and rescue mission, and recent 
press reports at least indicate there are CIA operatives on the 
ground. So boots on the ground, as I would define it, but 
perhaps military boots on the ground is what we really mean.
    My question relates here to the desired end state and our 
ability to achieve not only the military objective, but also 
the political objective, which presumably is why we are in 
there militarily. Our political objective, stated so many 
times, is to remove Qadhafi from power and hopefully replace 
him with someone who does have the moral authority to lead, 
someone who is not a tyrant. And I think it is quite possible, 
I agree with you, Mr. Secretary, we may well achieve some 
narrowly defined military objective and find out the larger 
political aims have not been realized. And to what end are we 
fighting? It is the political objectives.
    We have heard here today the rebel forces are not a 
coherent group, and that there are multiple leaders, probably 
more in the west than there are in the east part of the 
country. And so my question is this: If we are not dealing with 
a cohesive group here, and we are dealing with various leaders, 
are you concerned that Al Qaeda or Hezbollah or some other 
unsavory group might take advantage of a leadership vacuum that 
we are helping to facilitate through our military action?
    Secretary Gates. I think that in Libya that would be very 
unlikely. In terms of the achievement of an objective, I would 
not underestimate the importance of preventing large numbers of 
Libyans from being killed by their own government. I mean, that 
is one of the U.N. Security Council resolution authorizations. 
And the humanitarian side of this at this point is not so much 
sending in food and water and medical attention and so on, it 
is trying to prevent these people from being killed by their 
own government in large numbers and destabilizing the entire 
region.
    Mr. Young. Why do you regard it in the case of Libya as an 
unlikely scenario that an Al Qaeda or a Hezbollah could take 
advantage of a leadership vacuum?
    Secretary Gates. Well, because of what I have said earlier. 
I mean, I am no great expert on Libya, but I think that the 
future Government of Libya is going to be worked out among the 
principal tribes, and they are the ones that even Qadhafi has 
had to balance and work with. So I think that for some outside 
group or some element of Al Qaeda in the Islamic Maghreb to be 
able to hijack this thing at this point looks very unlikely to 
me.
    Mr. Young. Thank you.
    The Chairman. Mr. Secretary and Mr. Chairman, thank you 
very much for being here today, for being responsive to this 
committee. Thank you for your service, and please express our 
appreciation to all who serve under you. Thank you very much.
    This committee is adjourned.
    [Whereupon, at 11:35 a.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 31, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 31, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5802.001
    
    [GRAPHIC] [TIFF OMITTED] T5802.002
    
    [GRAPHIC] [TIFF OMITTED] T5802.003
    
    [GRAPHIC] [TIFF OMITTED] T5802.004
    
    [GRAPHIC] [TIFF OMITTED] T5802.005
    
    [GRAPHIC] [TIFF OMITTED] T5802.006
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 31, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FRANKS

    Mr. Franks. Secretary Gates, recently Ambassador Michael Oren 
raised the interesting question of what the response would look like if 
Qadhafi had gone nuclear instead of ending his nuclear weapons program 
in 2004. How would Operation Odyssey Dawn differ if this were the case?
    a. Did the fact that Col. Qadhafi has no nuclear armament weigh in 
on our ability to effectively establish a no-fly zone?
    b. And what parallels can be drawn from our laissez faire approach 
with Libya and a non-nuclear pursuing Qadhafi and our laissez faire 
approach with Iran and its nuclear pursuing regime?
    c. In other words, how would our ability to intervene in Libya 
change if Col. Qadhafi had access to nuclear weapons, and what 
implications can be connected to our strategy in a non-nuclear Libya 
and an ever close nuclear Iran?
    Secretary Gates. [The information was not available at the time of 
printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. 1. While I believe the Administration has taken the 
correct steps up to this point in Libya, I remained concerned about any 
escalation of the conflict involving U.S. troops and the eventual 
endgame. I'm concerned about how large a role our Allied partners will 
play. What specific role will our regional partners take in the 
``political and economic measures'' Secretary Gates mentioned in his 
testimony that will bring about a political change in Libya?
    2. With Muammar Qadhafi's vast financial resources, in spite of the 
U.S. Treasury's lockdown of Libya's U.S.-based assets, I remain 
concerned about his continued ability to hire mercenaries in order to 
retain the military force necessary to hold on to power. With this in 
mind, can political and economic measures alone be effective before the 
capabilities of the rebel forces are drained significantly?
    3. Secretary Gates recently stated that Libya did not constitute a 
pressing national security crisis. In a seemingly contradictory 
statement, Secretary Clinton stated the threat to Egypt's political 
stability and U.S. international goals of support for human rights and 
democracy required U.S. intervention. Is Libya a national security 
mission or a human rights mission?
    a. Does the Department of Defense have a different view of our 
strategic goals than the Department of State?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Langevin. During his recent testimony to Congress, Admiral 
James G. Stavridis, the current NATO Supreme Allied Commander in 
Europe, stated that the Defense Department witnessed ``flickers of 
possible Al Qaeda and Hezbollah among the rebel forces in Libya.'' But 
the information provided by the Defense Department during the hearings 
suggests we have only limited visibility into the composition of the 
rebel forces beyond the groups' various leaders. How do we know that we 
are not replacing the devil we know with the devil we do not?
    a. What have we (the U.S. and International Community) collectively 
done to ensure we know with whom we are working?
    Admiral Mullen. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PALAZZO

    Mr. Palazzo. Thank you for appearing before the committee and thank 
you for your service to the country. The current events in Libya 
represent yet another failure to lead by the President. He has failed 
to establish a clear strategy, failed to offer a clear end state, and 
failed to convey adequate information to Congress or the American 
people. If nothing else, he owes it to the men and women serving our 
country in the armed forces, to give a clear message about why they are 
going to war. In a time where our military is already being asked to do 
so much, it is irresponsible to saddle them with yet another engagement 
without adequate planning or guidance.
    1. What is the desired end state of this military intervention?
    2. The President has already noted that we have transferred 
responsibility to our allies and partners. Could you elaborate on what 
the American role in the operation will be from this point forward?
    3. Could you elaborate on what the American role in NATO decision 
making will be from this point on?
    4. At last count, 28 countries were currently involved in the 
operation. Are we therefore paying for 1/28th of the cost of the 
operations?
    5. What is the total cost to date of this operation?
    6. Any forces that have been deployed at this point have been 
redirected from different locations, have any been moved from other 
missions? Could you elaborate on what missions are currently being 
delayed for this operation?
    Secretary Gates. [The information was not available at the time of 
printing.]
    Mr. Palazzo. Thank you for appearing before the committee, and 
thank you for your service to the country. The current events in Libya 
represent yet another failure to lead by the President. He has failed 
to establish a clear strategy, failed to offer a clear end state, and 
failed to convey adequate information to Congress or the American 
people. If nothing else, he owes it to the men and women serving our 
country in the armed forces, to give a clear message about why they are 
going to war. In a time where our military is already being asked to do 
so much, it is irresponsible to saddle them with yet another engagement 
without adequate planning or guidance.
    1. What is the desired end state of this military intervention?
    2. The President has already noted that we have transferred 
responsibility to our allies and partners. Could you elaborate on what 
the American role in the operation will be from this point forward?
    3. Could you elaborate on what the American role in NATO decision 
making will be from this point on?
    4. At last count, 28 countries were currently involved in the 
operation. Are we therefore paying for 1/28th of the cost of the 
operations?
    5. What is the total cost to date of this operation?
    6. Any forces that have been deployed at this point have been 
redirected from different locations, have any been moved from other 
missions? Could you elaborate on what missions are currently being 
delayed for this operation?
    Admiral Mullen. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KISSELL

    Mr. Kissell. 1. Is it your position that ``no boots on the ground'' 
fully encompasses no troops advising, assisting, or training identified 
opposition fighters, opposition groups, or any other anti-Qadhafi 
government entities opposing the current regime in Libya?
    2. Can you specifically state that ``no boots on the ground'' also 
encompasses a prohibition against providing similar advisement, 
training, or assistance to opposition groups outside of Libya's borders 
that will then enter Libya to oppose Qadhafi?
    3. With a no-fly zone established, what is the impact to civilian 
and opposition vehicular movement? How are opposition forces attacking 
pro-Qadhafi elements and also defending civilian populations within the 
confines of the no-fly/no-drive zone?
    a. How are we delineating between pro-Qadhafi forces and opposition 
forces if we do not have troops or other United States agency 
representation on the ground in Libya?
    4. Ultimately, by supporting a ``no-fly zone'' have we created a 
stalemate by empowering a force that may not have the capacity to oust 
Qadhafi and Qadhafi loyalists?
    5. What is the expected end state? It is unacceptable to simply 
respond that the end state is measured by Qadhafi leaving the country 
or relinquishing control of the government. At what point have we 
achieved our objectives?
    Secretary Gates. [The information was not available at the time of 
printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. HEINRICH

    Mr. Heinrich. 1. What is our assessment of the composition of the 
rebel forces and their leadership council?
    2. In your opinion, how would an unrestrained Colonel Qadhafi 
impact the democratic uprisings occurring across the broader Middle 
East?
    3. On Monday night the President explained that we have transferred 
responsibility to our allies and partners. Could you elaborate on what 
the American role in NATO decision-making will be from this point on?
    4. What is the desired end-state of this military intervention?
    Admiral Mullen. [The information was not available at the time of 
printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. HANABUSA

    Mrs. Hanabusa. 1. Does UN Resolution 1973 have sufficient basis to 
satisfy the War Powers Act?
    2. Are the Libyan Rebels an identifiable group with a leader or 
defined leadership structure?
    3. Can you define success in Libya since regime change is not our 
objective?
    4. It seems to me the real rationale for United States support for 
this operation is a political one--to support allies who have supported 
the United States in Afghanistan. Without regime change as a goal, by 
not putting boots on the ground, and not wanting to train or arm Libyan 
rebels how would you define the United States interaction?
    5. The President has talked about the mission being limited, not 
putting boots on the ground, and transferring responsibility to the 
United Nations. How do you know when the U.S. role will end? Does CIA 
assets in Libya equate to--not count as troops on the ground, boots on 
the ground?
    6. The opposition in Libya needs training and command and control 
assistance (arming the rebels), you mentioned that this type of 
assistance has plenty of sources for it other than the United States. 
It sounds as though you do not want to arm or equip the rebels. Is this 
something that we are actively considering? I'm also wondering about 
the broader policy issue. Is arming the rebels consistent with the U.N. 
resolution? Is that a humanitarian option?
    7. With the Congress not having passed a year long spending bill 
that included Defense you mentioned that the Department of Defense 
would be able to manage in the short term. One of the ways you said you 
would be able to manage is that you are able to move money around from 
projects or accounts that the DoD does not need or want. Can you please 
provide me with those programs that are not needed or wanted?
    8. Secretary Gates, you also said the DoD was holding back on 
procurement contracts until Congress passes a yearlong defense spending 
bill. Approximated how much money is being held back?
    9. What is the total amount of money we have spent in our 
assistance to Japan?
    Secretary Gates. [The information was not available at the time of 
printing.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
